<html>
<title> - AFRICOM: RATIONALES, ROLES, AND PROGRESS ON THE EVE OF OPERATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   AFRICOM: RATIONALES, ROLES, AND PROGRESS ON THE EVE OF OPERATIONS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2008

                               __________

                           Serial No. 110-204

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-642 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
JACKIE SPEIER, California
                       Dave Turk, Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2008....................................     1
Statement of:
    Pendleton, John, Director, Force Structure and Defense 
      Planning Issues, U.S. Government Accountability Office.....    37
    Ploch, Lauren, Analyst in African Affairs, Foreign Affairs, 
      Defense, and Trade Division, U.S. Congressional Research 
      Service....................................................    21
    Whelan, Theresa, Deputy Assistant Secretary of Defense for 
      African Affairs, Office of the Secretary of Defense, U.S. 
      Department of Defense......................................     9
    Yates, Mary C., Deputy to the Commander for Civil-Military 
      Activities, U.S. Africa Command............................    16
Letters, statements, etc., submitted for the record by:
    Pendleton, John, Director, Force Structure and Defense 
      Planning Issues, U.S. Government Accountability Office, 
      prepared statement of......................................    39
    Ploch, Lauren, Analyst in African Affairs, Foreign Affairs, 
      Defense, and Trade Division, U.S. Congressional Research 
      Service, prepared statement of.............................    24
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4
    Whelan, Theresa, Deputy Assistant Secretary of Defense for 
      African Affairs, Office of the Secretary of Defense, U.S. 
      Department of Defense, prepared statement of...............    12
    Yates, Mary C., Deputy to the Commander for Civil-Military 
      Activities, U.S. Africa Command, prepared statement of.....    18


   AFRICOM: RATIONALES, ROLES, AND PROGRESS ON THE EVE OF OPERATIONS

                              ----------                              


                         TUESDAY, JULY 15, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, McCollum, 
Welch, Shays, Platts, and Turner.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Andy Wright, 
counsel; Rebecca Mackey, graduate intern; Dan Hamilton, fellow; 
Nicholas Palarino, minority senior investigator and policy 
adviser; Christopher Bright, minority senior professional staff 
member; and Adam Fromm, minority professional staff member.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``AFRICOM: Rationales, Roles, and Progress on the Eve of 
Operations,'' will come to order.
    Good morning. I want to thank all of our witnesses for 
being here to testify this morning. Today we are going to have 
some oversight of the U.S. military's newest combatant command, 
AFRICOM. While this hearing is the subcommittee's first public 
discussion of this important topic, it represents a year-long 
bipartisan investigation that included asking the Government 
Accountability Office to analyze the stand-up of AFRICOM, which 
is to reach full operating capabilities just a few short months 
from now, September 30, 2008, as we understand it.
    I want to thank Ranking Member Shays and Mr. Turner and 
their staff for joining us on this important effort.
    And today we essentially ask the question, what is AFRICOM? 
One might think that should be a fairly simple, straightforward 
question, but as it turns out, it is not necessarily so.
    The Government Accountability Office's testimony includes 
an interesting passage, ``State Department officials said that 
they had difficulty in responding to African concerns about 
AFRICOM because of their own confusion over AFRICOM's intended 
mission and goals.''
    Today's hearing attempts for policymakers, for the American 
public, and even for our own government representatives 
throughout Africa to try to bring some clarity here, or at 
least to ask the right questions.
    What is clear is that AFRICOM will bring three existing 
military commands with responsibilities for parts of Africa 
into one Africa-centric command. AFRICOM's geographic 
jurisdiction has been carved from CENTCOM, which focused on the 
Horn of Africa and other eastern regions of the continent; U.S. 
Pacific Command, which focused on Madagascar; and the U.S. 
European Command [EUCOM], which focused on western and southern 
Africa. As a result, AFRICOM will oversee U.S. military 
relationships, activities, and interests throughout Africa, 
with the sole exception of Egypt, which will remain under the 
auspices of CENTCOM.
    Significant government initiatives, such as the 
establishment of a new combatant command, raise important 
congressional oversight questions. For example, about the 
continuity of operations, the right-sizing necessary 
infrastructure and personnel, and the sound stewardship of 
taxpayer funds. And we will explore these issues at today's 
hearing.
    But AFRICOM represents additional questions during a post-
cold war, post-9/11 environment in which we continue to grapple 
with the asymmetric threats of terrorism and potential breeding 
grounds in ungoverned spaces. We also have a continent that too 
often has been wracked by poverty, disease, and war. In fact, 
Africa includes more than two-thirds of all the word's HIV-
positive population, including some militaries with rates as 
high as an estimated 50 percent.
    Last November, Defense Secretary Robert Gates delivered a 
remarkable lecture in which he recognized that, ``these new 
threats require our government to operate as a whole 
differently, to act with unity, agility, and creativity. And 
they will require considerably more resources devoted to 
America's nonmilitary instruments of power.''
    Early administration rhetoric envisioned AFRICOM as a 
transformational experiment, providing a whole-of-government 
interagency approach to U.S. national security strategy. Some 
of this initial vision remains, including adding a State 
Department Foreign Service officer as one of the two deputy 
commanders. We will hear from Ambassador Yates in just a few 
moments. However, and this is something we will also explore at 
today's hearing, it appears that ambitions for AFRICOM have 
been scaled back, apparently because of concerns by the State 
Department, USAID, and others about a military lead in areas of 
diplomacy and international development; and, two, African 
governments' neocolonial concerns about a prominent U.S. 
military presence on the continent; and three, nongovernmental 
organizations' concerns about the potential militarization of 
foreign aid and humanitarian assistance.
    So with that backdrop in mind, AFRICOM presents a number of 
additional oversight questions, some of which are AFRICOM-
specific, and some of which point to broader fundamental 
questions of how the United States should organize itself to 
maximize our foreign policy and national security interests.
    In the spirit of constructive oversight, I want to 
highlight a few of these questions that will be on our minds as 
we begin to hear from the panel of dedicated public servants 
from both the executive and the legislative branches of 
government. What is the strategic vision driving the creation 
of AFRICOM? How has that vision evolved over time? Who will be 
at the table as this vision continues to be developed? What are 
the current and future missions planned for AFRICOM? Some refer 
to AFRICOM as a combatant command ``plus.'' What is the 
``plus?'' What type of soft power mandate does AFRICOM have? 
What kinds of so-called Phase Zero operations, that is those 
aimed at building and maintaining a stable security 
environment, will AFRICOM undertake?
    What is the status and plan for interagency staffing in 
AFRICOM? Where will it be in October of this year? And what is 
the ultimate goal?
    How will the interagency work with AFRICOM, as well as 
among AFRICOM and State Department, USAID, and other 
governmental departments and the various, bilateral embassy 
country teams throughout Africa?
    What are AFRICOM's future plans for the U.S. military 
footprint in Africa?
    How is AFRICOM going to interact with nongovernmental 
organizations that are involved in humanitarian and development 
work?
    And how will AFRICOM interact with Africans and American 
nations themselves?
    And one final question that really goes to the colleagues 
as much as to our panel: To the extent that AFRICOM is not 
going to be or is simply not the right model for a whole-of-
government approach to national security strategy, what is the 
right model, platform, and government structure required to 
achieve that unity, agility, and creativity echoed recently by 
Secretary Gates?
    I look forward to our discussion, and now I invite Mr. 
Turner to provide his opening remarks.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Thank you, Mr. Chairman. Thank you, Chairman 
Tierney, for holding this important hearing on AFRICOM, the 
newest U.S. command. With the concurrence of the chairman, I 
would like to submit Ranking Member Shays' opening statement 
and----
    Mr. Tierney. Without objection.
    Mr. Turner. I appreciate your interests in the issues 
associated with this command, as well as your commitment to see 
it succeed.
    Your letter, coauthored by Ranking Member Shays, requesting 
a bipartisan study from the Government Accountability Office to 
examine AFRICOM, clearly substantiates your interest and your 
commitment, and we thank you for that.
    It is my understanding that AFRICOM is scheduled to execute 
its first goal, which is to become fully operational, on 
October 1, 2008. Today's hearing is particularly timely, as we 
outline the challenges associated with its standup, and 
formulate a way to ensure its success.
    Today we find ourselves just 2 months shy of this initial 
goal. Looking back, it has been just shy of a year and a half 
since President Bush announced the creation of AFRICOM, in 
February 2007. And during this time, the House has received 
just one hearing on the status of AFRICOM, 8 months ago, in 
November 2007, when the Armed Services Committee received the 
AFRICOM Commander and senior administration officials from the 
Defense and State Departments. Since that time, Members have 
had to rely on bits and pieces of information, and have been 
repeatedly advised by administration officials it is too 
premature to tell how AFRICOM is performing, and far too early 
to pass judgment on AFRICOM's performance.
    Although I agree with the latter assessment, I cannot 
concur with the former conclusion. At this juncture, just 2 
months before AFRICOM is set to proclaim itself functioning at 
full operational capacity, the House would be remiss if we did 
not ask tough questions.
    Now, let me start by framing some of the most important 
issues before us today. What is this mission of AFRICOM? Since 
the inception of an idea a year and a half ago to now, just 2 
months shy of its full operational capacity, has the mission of 
this combat command changed? Second, are we addressing the key 
immediate concerns necessary to support this mission? Is the 
structure that was originally conceived actually working? Are 
the military and State Department roles properly balanced and 
allocated? In terms of manning, are the required agencies 
actually providing the personnel? Are the current combat 
commands and other associated agencies complying with mandates 
to turn over existing missions as planned? Is AFRICOM receiving 
the necessary support from the interagency process, from the 
necessary funding authorities? And in particular, are any of 
these immediate structural challenges issues for Congress or 
the executive branch?
    I realize these are numerous questions, but it is our 
constitutional duty as Members of Congress to ask what we can 
do right before this command becomes fully operational and we 
find ourselves too far along in the process asking what we did 
wrong.
    On this note, let me close by saying I hope that today we 
can hear a clear mission statement. I also look forward to 
hearing how the witnesses describe AFRICOM's ability so far to 
manage the critical internal challenges required to ensure that 
we address the greater challenges for which this command was 
created. It is in our Nation's best interests to bring together 
its key interagency actors across the spectrum of economic, 
diplomatic, and military resources to help African nations 
build the necessary infrastructure and capacity to prevent 
whole countries from descending into ungoverned spaces, where 
innocent people suffer and terror organizations thrive.
    With that, Mr. Chairman, I look forward to hearing from 
each of our witnesses today, and I yield back.
    Mr. Tierney. Thank you very much.
    The subcommittee will now receive testimony from the 
witnesses before us today. I would like to briefly introduce 
them.
    Ms. Theresa Whelan serves in the Office of the Secretary of 
Defense as Deputy Assistant Secretary for African Affairs. 
Commencing her career with the Defense Department as an Africa 
analyst for the Defense Intelligence Agency, she moved on to 
serve as Director of the Office of African Affairs in the 
Office of the Secretary of Defense, and as the NATO Team Chief 
on the Balkans Task Force through the Kosovo crisis.
    Ms. Whelan, thank you for being here today.
    Ambassador Mary C. Yates is the Deputy to the Commander for 
Civil-Military Activities in the U.S. African Command. She is a 
senior U.S. diplomat, who has served as Ambassador to Burundi 
and Ghana, and as a foreign policy advisor to the U.S. European 
Command, which traditionally held responsibility for much of 
Africa.
    Ambassador, we look forward to hearing more about your 
unique position with AFRICOM.
    Major General Michael A. Snodgrass. General Snodgrass is 
the Chief of Staff for AFRICOM. He is responsible for the 
operation of the command's joint and interagency staff. He is a 
graduate of the U.S. Air Force Academy, and has flown over 200 
hours in combat, including over 100 missions over Iraq from 
1996 to 2000, as both a squadron commander and Commander of the 
332nd Air Expeditionary Group at Al Jaber Air Base in Kuwait.
    General, thank you for your service, and thank you for 
being here today.
    Ms. Lauren Ploch--Ploch? Not bad, first shot--is an analyst 
in African affairs with the Congressional Research Service. She 
has managed democratic support initiatives for a number of 
programs for USAID, the State Department, and the National 
Endowment for Democracy. She served previously as a legislative 
assistant in the U.S. Senate.
    So thank you for being with us today. We appreciate your 
testimony as well.
    And Mr. John Pendleton is the Director of Force Structure 
and Defense Planning Issues in the Defense Capabilities and 
Management Team with the U.S. Government Accountability Office. 
In his position he has overseen a number of defense-related 
programs, including efforts to improve care in the wake of the 
Walter Reed scandal--and we thank you for that--the military 
response to Hurricane Katrina, and the examinations of military 
readiness. Mr. Pendleton also teaches and is a member of the 
GAO's adjunct faculty, and is a national recruiter. And I also 
want to thank members of his team, namely Robert L. Repasky, 
Tim Burke, Leigh Caraher, Grace Coleman, Taylor Matheson, 
Lonnie McAllister, and Amber Simco, for the hard work and 
dedication that everybody put into the project. We appreciate 
it.
    The subcommittee thanks all of you for being with us today. 
I want to especially thank you for your continued service to 
your country, each and every one of you. Your experience and 
firsthand knowledge of the topics before us today, we are all 
confident that you are going to help us understand as we move 
forward in our role.
    It is the policy of this subcommittee to swear you in 
before you testify, so I ask you to please stand and raise your 
right hands. And if there is any person who is going to assist 
you in your testimony, we ask that they also stand and raise 
their hand.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses have answered in the affirmative.
    It is also our practice, for those that may have not 
testified before this committee before, that your written 
statements in their entirety will be put in the record. And so 
to try and keep your remarks as close to 5 minutes as possible, 
we ask that you summarize those remarks. To the extent I 
noticed several of them were rather brief anyway, probably well 
within the 5 minutes, we will be as lenient as we can, but at 
some point we want to get the questioning and answering in, and 
we would like to try to get you through this hearing before 
votes start so that we don't unduly keep you waiting around for 
the morning.
    So let's start with Ms. Whelan. If you are prepared, we are 
ready to hear your testimony.

  STATEMENT OF THERESA WHELAN, DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR AFRICAN AFFAIRS, OFFICE OF THE SECRETARY OF 
              DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Ms. Whelan. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished members of the committee, 
thank you for the opportunity to speak to you today about the 
U.S. Africa Command. Let me briefly summarize what has already 
been submitted to you in my written testimony.
    Stability and prosperity in Africa are important to the 
long-term interests of the United States because a secure and 
stable, healthy and more prosperous Africa will contribute to 
global security and a stronger world economy.
    Many of Africa's security challenges are not limited to 
conventional state-on-state conflicts, although those still do 
exist, but are multinational and transnational in nature. 
African governments and institutions are turning to collective 
security mechanisms to address these challenges, and our 
engagement with Africa needs to reflect these African 
innovations at the regional level, in addition to our 
traditional bilateral defense and military relationships.
    U.S. Africa Command represents an opportunity to strengthen 
and expand United States and African security relationships in 
such a way that our combined efforts can help generate more 
indigenous, and therefore more sustainable, peace and security 
on the continent. USAFRICOM is also a manifestation of how DOD 
is innovating to transform its ability institutionally to meet 
the challenges of the new global security environment.
    USAFRICOM's military engagement on the African continent 
will remain primarily focused on building security partnership 
capacities, conducting theater security cooperation, building 
important counterterrorism skills, and, as appropriate, 
supporting U.S. Government agencies in implementing other 
programs to promote regional stability. We expect USAFRICOM 
will allow DOD civilian and military leaders to take a more 
holistic and operationally efficient approach to the 
opportunities and challenges that lay ahead as Africa's 
multilateral institutions, such as the African Union and the 
regional economic communities, figure more prominently in 
African security affairs.
    USAFRICOM is an innovative command in several ways. First, 
unlike traditional unified commands, its primary focus will be 
on building African regional security and crisis response 
capacity. USAFRICOM will promote greater security ties between 
the United States and Africa, providing new opportunities to 
enhance our bilateral military relationships and strengthen the 
capacities of Africa's regional and subregional organizations.
    Second, USAFRICOM will include a significant and carefully 
selected number of representatives from other U.S. agencies 
within its staff, including officers from the Department of 
State and the U.S. Agency for International Development. A 
variety of agencies have existing bilateral relationships and 
programs with African governments. Many of these programs are 
complementary to or intersect DOD defense and military-related 
programs. Officers embedded in the commands from these agencies 
will be able to contribute their knowledge and expertise to the 
command so that USAFRICOM will be more effective in supporting 
peacekeeping capacity and in the broader security sector, and, 
when appropriate, supporting other U.S. Government agencies and 
African governments in humanitarian assistance and disaster 
response.
    Third, USAFRICOM currently in Stuttgart, Germany, is a 
staff headquarters, not a troop headquarters. Once fully 
staffed, it will be made up of roughly one-half civilian and 
one-half military personnel, with a Commander who has both a 
military and a civilian Deputy. The Deputy to the Commander for 
Civil-Military Affairs, the DCMA is a Senior Foreign Service 
officer from the Department of State. The leadership of a State 
Department officer at this senior level will also enhance 
USAFRICOM's ability to support such State Department-funded 
endeavors as the African Contingency Operations Training and 
Assistance program, a mainstay of the U.S. effort to build 
peace-support operations and capacity in Africa.
    Fourth, recognizing that USAFRICOM's focus is on war 
prevention rather than warfighting, following Sun Tzu's 
timeless advice, the inner workings of the command has been 
organized to best position it for theater security cooperation 
activities, and the flexibility needed to prevent problems from 
becoming crises, and crises from becoming catastrophes.
    There are many misconceptions about what USAFRICOM will 
look like and what it will do. Some believe that we are 
establishing USAFRICOM solely to fight terrorism or to secure 
oil resources or to discourage China. These are misperceptions. 
Violent extremism is a cause for concern and needs to be 
addressed, but this is not AFRICOM's singular mission. Natural 
resources, such as oil, represent Africa's current and future 
wealth, but all we seek is a fair market environment, where all 
can fairly compete and benefit along with other participants in 
the global market.
    Some have raised the concern that USAFRICOM will take 
control of security issues that are the responsibility of the 
Africans themselves. Our intent is quite the contrary. The 
purpose of USAFRICOM is to encourage and support African 
leadership and initiative, not to compete with it or discourage 
it. U.S. security is enhanced when African nations themselves 
endeavor to successfully address and resolve emergent security 
issues before they become so serious that they require 
considerable international resources and intervention to 
resolve.
    Finally, there are fears that USAFRICOM represents a 
militarization of U.S. foreign policy in Africa, and that 
USAFRICOM will somehow become the lead U.S. Government 
interlocutor with Africa. This fear is unfounded. USAFRICOM 
will support, not shape, U.S. foreign policy on the continent. 
The Secretary of State remains the chief foreign policy advisor 
to the President, and the Secretary of Defense remains the 
chief advisor on defense matters. Chief of Mission authorities 
will remain as they are, as will authorities relating to 
combatant commanders.
    The establishment of USAFRICOM and the participation of 
State, USAID, and other U.S. agencies demonstrates the 
importance the U.S. Government places on strengthening ties 
with Africa. With USAFRICOM, the United States will be working 
in partnership with Africans to foster an environment of 
security and peace, an environment that will enable Africans 
themselves to further strengthen their democracies, 
institutionalize respect for human rights, pursue economic 
prosperity, and build effective regional institutions. A more 
stable Africa serves the goal, helping to foster a more stable 
global environment.
    Thank you for your time, Mr. Chairman, and your attention, 
and I look forward to your questions.
    Mr. Tierney. Thank you, Ms. Whelan.
    [The prepared statement of Ms. Whelan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Ambassador Yates.

 STATEMENT OF MARY C. YATES, DEPUTY TO THE COMMANDER FOR CIVIL-
            MILITARY ACTIVITIES, U.S. AFRICA COMMAND

    Ambassador Yates. Good morning. Thank you, Mr. Chairman, 
and distinguished members of the committee, for the opportunity 
to address this committee on the establishment of the U.S. 
Africa Command, USAFRICOM, especially its interagency 
component. As senior leaders of AFRICOM, we are deeply involved 
in the building of the command into an effective interagency 
team in support of U.S. Government policy to assist the 
continent of Africa and its island nations in establishing and 
maintaining their own security and stability. Thus far, the 
level of participation in USAFRICOM from across the U.S. 
Government has been excellent, and we look forward to 
discussing in detail the nature of this participation.
    As we assess the security challenges facing the continent 
of Africa and its island nations, such as terrorism, enduring 
conflicts, trafficking, poverty, and natural disasters, few are 
purely military in nature. Throughout Africa, security and 
development are intertwined and equally vital in helping the 
Africans achieve their goals. This is one area where we and our 
African partners are in strong agreement.
    In the United States, we have a clear dividing line between 
issues that belong within the realm of the military and those 
that belong with other security organizations, such as the 
police, border security, customs and immigration, emergency 
response, etc. For many African nations, the greatest threats 
are internal, and we should not expect that Africans organize 
their security apparati the same way that we do in the United 
States. Our primary military threats, whether it is terrorism, 
weapons of mass destruction and the like, are external. In 
addition, certain capabilities that we find in our military, 
counterterrorism, for example, reside in nonmilitary ministries 
in Africa.
    Therefore, building security capacity in Africa presents a 
broader challenge. We must build this capacity as an 
interagency team, one that works with mutual trust, confidence, 
and support. Those activities we undertake must have positive 
effects on the activities of others, and we need to be informed 
by the totality of the security environment. When assisting in 
nonmilitary activities, like humanitarian assistance, we will 
do it in support of other U.S. Government agencies so we ensure 
we meet their requirements and achieve their desired effects.
    The USAFRICOM mission is, ``The United States Africa 
Command, in concert with other U.S. Government agencies and 
international partners, conducts sustained security engagement 
through military-to-military programs, military-sponsored 
activities, and other military operations as directed to 
promote a stable and secure African environment in support of 
U.S. foreign policy.'' We would like to highlight three key 
elements of this mission statement.
    First, in concert with other U.S. Government agencies and 
international partners. This emphasizes our role as the 
military component within the context of the broader U.S. 
Government effort. We will conduct all of our activities as 
part of the interagency team.
    Second, sustained security engagement. At USAFRICOM, we 
have committed ourselves to the delivery of effective security 
assistance programs and ensuring the programs achieve their 
desired effects in the long run.
    And third, in support of U.S. foreign policy. Our efforts 
represent the security dimension of the foreign policy set 
forth by the Department of State. USAFRICOM does not make U.S. 
foreign policy.
    In building the command, we determined that it was very 
important to have within the headquarters relevant subject 
matter expertise from the broader security and development 
domains. These experts would be integrated into the development 
and planning stages of our activities. Identifying these staff 
positions and placing them appropriately throughout the command 
has been a deliberate process that is progressing well, and 
with the full support of U.S. Government agencies. By employing 
permanent and temporary interagency personnel, and through 
increased partnerships with key agencies across the U.S. 
Government, our capabilities as an interagency command are 
growing.
    These partnerships are vital to U.S. Africa Command's 
mission accomplishment. USAFRICOM will contribute to the 
harmonization of U.S. Government efforts to maximize the 
effectiveness of our Nation's resources being dedicated to 
Africa. In doing so, we add value to the U.S. Government 
programs already underway on the continent, and expect to 
develop and implement more effective programs in the future.
    And finally, on September 30, 2008, USAFRICOM will become 
the sixth geographic combatant command in the Department of 
Defense. We anticipate the USAFRICOM interagency team will 
foster closer collaboration with the U.S. Government and more 
effective military-to-military partnerships with the African 
nations that will bring greater stability and enhanced security 
capacity. We are a listening, growing, and developing 
organization, dedicated to partnering with African governments, 
African security organizations, and the international community 
to achieve the U.S. security goals by helping the people of 
Africa achieve the goals that they have set for themselves.
    Thank you very much, Mr. Chairman, for the honor of 
appearing, and I look forward to your questions.
    Mr. Tierney. Thank you, Ambassador.
    [The prepared statement of Ambassador Yates follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. General, I understand you are playing the 
strong, silent type here at the opening section.
    General Snodgrass. That is correct.
    Mr. Tierney. OK. That works for us.
    Ms. Ploch.

STATEMENT OF LAUREN PLOCH, ANALYST IN AFRICAN AFFAIRS, FOREIGN 
   AFFAIRS, DEFENSE, AND TRADE DIVISION, U.S. CONGRESSIONAL 
                        RESEARCH SERVICE

    Ms. Ploch. Chairman Tierney and distinguished members of 
the House subcommittee, my name is Lauren Ploch, and I am an 
analyst in African affairs with CRS. I would like to thank you 
for the opportunity to testify today on AFRICOM. I will try to 
explore a few of your questions on the AFRICOM's creation and 
its mission.
    The Bush administration created AFRICOM in part to address 
concerns over DOD's division of responsibility for Africa among 
three geographic combatant commands. The establishment of 
AFRICOM also reflects an evolution in perceptions of U.S. 
strategic interests in Africa. U.S. military focus on the 
continent has historically been sporadic, and just over a 
decade ago, DOD publicly declared that it saw very little 
traditional strategic interest in Africa.
    The 1998 embassy bombings in East Africa are considered by 
many analysts to be a turning point in U.S. strategic policy 
toward the region. U.S. security strategy toward Africa now 
appears to be focused toward protecting trade interests, 
reducing armed conflict, and countering proliferation and 
terrorism.
    The inability of African governments to adequately police 
the region's waters has allowed illicit trafficking through the 
region, and has opened maritime commerce and offshore oil 
production to the threat of piracy and sabotage. U.S. naval 
operations in African waters have increased in recent years, as 
have efforts to increase the capacity of African navies to 
enforce maritime laws.
    Conflict and instability in parts of Africa have undermined 
economic, political, and social development across the 
continent. Instability in Africa has demanded substantial 
humanitarian and defense resources from the international 
community. And the United States and other donor countries have 
acknowledged the potential cost-effectiveness of enhancing the 
capabilities of African forces to participate in peace 
operations.
    One of the most significant efforts to upgrade African 
peacekeeping capabilities is the African Contingency Operations 
Training and Assistance Program [ACOTA], a State Department-led 
effort that has trained over 60,000 African peacekeepers with 
U.S. military assistance since 2002.
    Terrorist attacks in East and North Africa in the last 
decade have highlighted the threat of extremism in the region. 
In response, the administration has developed a number of 
initiatives to strengthen regional counterterrorism 
capabilities and to discredit terrorist ideology. State 
Department's Trans-Sahara Counterterrorism Partnership [TSCTP], 
has a significant U.S. military component, which AFRICOM will 
take responsibility for this fall. The military component is 
designed to support complementary USAID activities in West and 
North African countries bordering the vast Sahara Desert.
    On the other side of the continent is the Combined Joint 
Task Force: Horn of Africa [CJTF-HOA], which was created in 
2002 to focus on counterterrorism activities in East Africa. 
CJTF-HOA personnel now not only collect intelligence and train 
regional forces on counterterrorism, they also serve as 
advisors to peace operations, maintain critical maritime access 
to Red Sea routes, and support disaster relief efforts. CJTF-
HOA also targeted humanitarian operations as a part of an 
effort to win hearts and minds.
    AFRICOM's billing as an innovative DOD approach to meeting 
U.S. security goals has put AFRICOM under increased scrutiny. 
Although the precise wording of AFRICOM's mission statement has 
evolved since the command was first announced, the lasting 
premise behind AFRICOM's establishment, according to its 
creators, is that stable and secure states would be more 
capable of deterring terrorism, crime, and proliferation. 
Building partnership capacity is a key component of this 
approach, and has been at the forefront of U.S. military 
strategy in Africa in recent years. As such, the mission of 
AFRICOM might be most closely compared to that of SOUTHCOM. 
Both commands are expected to supervise an array of operations 
that relate to U.S. strategic interests, but are not 
necessarily combat related, unlike EUCOM, CENTCOM and PACOM, 
which have traditionally been more focused on preparing for 
potential warfighting.
    Given its prescribed mission, some DOD officials have 
referred to AFRICOM as a combatant command plus. This implies 
that the command would have all the roles and responsibilities 
of a traditional combatant command, including the ability to 
conduct military operations, but would also include a broader 
soft power mandate. Some argue this reflects an evolution in 
DOD strategy. Traditionally focused on fighting and winning 
wars, defense strategy now also looks at conflict prevention. 
One DOD official has suggested that the U.S. Government could 
consider AFRICOM a success if it keeps American troops out of 
Africa for the next 50 years.
    The prospect that DOD will focus less on fighting wars and 
more on preventing them engenders mixed feelings in some U.S. 
Government circles. While many in the State Department and 
USAID welcome the ability of DOD to leverage resources and to 
organize complex operations, there is also concern that the 
military may overestimate its capabilities, as well as its 
diplomatic role in Africa, or pursue activities that are not a 
core part of its mandate. Some argue that the unequal 
allocation of resources between the Departments of Defense, 
State, and USAID hinder their ability to act as equal partners, 
and could lead to the militarization of development and 
diplomacy. Others have expressed concerns over potential turf 
wars between the Departments that could undermine the 
effectiveness of U.S. antiterrorism efforts.
    DOD's effort to incorporate an unprecedented number of 
civilian personnel in AFRICOM seems to reflect an 
acknowledgement that the U.S. military cannot prevent conflicts 
in Africa without a more holistic approach. But creating these 
civilian billets is one thing, and staffing them is another. 
The State Department has requested funding to increase the 
number of diplomatic and development personnel at State and 
USAID to allow the agencies to focus greater effort on meeting 
national security goals. The Secretary of Defense has advocated 
on behalf of the civilian agencies, emphasizing that the State 
Department is critically understaffed.
    AFRICOM's ability to address interagency concerns 
collaboratively within its organizational structure, and its 
ability to address the concerns of its African partners within 
the context of its operations, will be critical to its ability 
to promote peace and stability on the continent.
    Thank you very much, and I look forward to your questions.
    Mr. Tierney. Thank you. You did well to get all that in.
    [The prepared statement of Ms. Ploch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Mr. Pendleton, I was thinking as I was 
introducing you and all of your staff of that commercial about 
the network, you know, having the network with you. I am sure 
all of the witnesses have a good network behind them. And we 
are happy to recognize yours as well. Would you please give us 
your testimony.
    Mr. Pendleton. Absolutely, Mr. Chairman. They are the 
brains of the operation.
    Mr. Tierney. You can tell them that.

  STATEMENT OF JOHN PENDLETON, DIRECTOR, FORCE STRUCTURE AND 
 DEFENSE PLANNING ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Pendleton. Mr. Chairman and members of the 
subcommittee, I am pleased to be here to today to support the 
subcommittee in its oversight of DOD's efforts to establish a 
new military command focused on stability and security in 
Africa. My statement today will describe the efforts to 
establish AFRICOM, as well as challenges that the command faces 
as it moves forward. Please note that our findings are 
preliminary, our work continues, and we will publish a report 
later this year.
    AFRICOM's efforts to reach agreement among stakeholders on 
its mission revealed concerns about what the military's role 
would ultimately be in Africa. Concerns arose that the creation 
of AFRICOM could blur traditional boundaries between diplomacy, 
development, and defense, and, in effect, militarize U.S. 
foreign policy. AFRICOM has been increasingly sensitive to 
these concerns, and is emphasizing its role as one of support, 
as you had heard earlier.
    Currently, AFRICOM is focused on transferring existing 
activities from the European, Central, and Pacific Commands, 
and by October AFRICOM plans to have assumed all existing 
missions. However, it will not yet be a mature command, one 
that will be taking on significant new missions or activities, 
at least not right away.
    Now let's turn to staffing the command. By October, DOD 
anticipates that it will have about 980 personnel assigned to 
AFRICOM, which is actually about three-quarters of the 1,300 
that they ultimately envision for the command. But staffing 
AFRICOM headquarters is only part of the personnel story. 
Geographic combatant commands like AFRICOM are typically 
supported by component commands from the four military services 
and the Special Operations Command. This means creation of five 
new headquarters. And each of these new component commands will 
need 100, up to 400 people. And this is going to put further 
strain on already stretched military personnel systems.
    The command will have some interagency participation at the 
outset. AFRICOM projects that it will have 13 personnel in 
place from outside DOD by October, and certainly some of those 
personnel are going to be in key positions, such as Ambassador 
Yates, who is here with us today, and she is serving as one of 
two coequal Deputies to the Commander. These 13 positions will, 
however, represent just 1 percent of the command staff. I think 
that is on the boards on the end now, and that is far less than 
what was anticipated for a command that was originally 
described by some as going to be interagency from the ground 
up.
    Now, there were never hard targets for interagency 
participation. Some early DOD estimates were that it could be 
up to a quarter of folks coming from outside DOD. In the near 
term, AFRICOM has set a target for 52 interagency positions, 
which would represent about 4 percent of the command, but it is 
still uncertain when these personnel are going to come on 
board, and much has to be worked out. And DOD also told us that 
the number is still under review. What is clear to us is that 
for the foreseeable future, AFRICOM will be predominantly a DOD 
command.
    Finally, location. For now, AFRICOM plans to have its 
headquarters in Stuttgart, Germany. AFRICOM describes the 
location in Stuttgart as interim. And the costs to renovate 
facilities there has been over $80 million or so thus far, and 
I think it will probably go some higher. But these are just 
startup costs. The full cost to support AFRICOM and its 
components could be considerably more over time, but the total 
amount is still unknown. For example, should the command stay 
in Stuttgart, AFRICOM has indicated that it will need a modern 
command and control center there that would allow them to 
coordinate operations. No such center or facility current 
exists at Kelley Barracks. In addition, as the military 
services stand up their component commands in Germany or Italy, 
or elsewhere, Congress can expect additional requests for 
funding.
    Finally, the question of how AFRICOM will achieve physical 
presence in Africa is still open. This has significant cost 
implications potentially. Initially, DOD envisioned an approach 
that would have placed part of its headquarters in Africa, but 
was confronted by concerns from both U.S. agencies and African 
partners. In the short term, AFRICOM plans to leverage existing 
relationships while it looks at options.
    In sum, Mr. Chairman, AFRICOM has certainly made some 
progress, but many daunting challenges remain. Two key precepts 
of the command, one, that it have significant interagency 
participation, and, two, would be physically located in Africa 
to engage partners there, will not be realized in the near 
term. The difficulties encountered in sorting out the 
military's role, staffing the command, and establishing a 
presence in Africa reveal deeper cultural and structural issues 
within the U.S. Government. Ultimately billions of dollars are 
at stake, though, so sustained attention will be needed to 
ensure that mounting investments pay off.
    Mr. Chairman, that concludes my statement, and I would 
certainly be happy to answer any questions.
    Mr. Tierney. Well, thank you, Mr. Pendleton.
    [The prepared statement of Mr. Pendleton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank all of you for your testimony. And we 
will start with the questioning now, if we can, on that. I 
think the first thing that pops up to our minds on this is 
there is no general disagreement with the concept that we may 
have gotten things wrong in the President's so-called global 
war on terror. I think he got the name wrong, and he got the 
concept wrong and most everything else wrong. But there is 
nothing inherently wrong about the idea that leading with the 
military and making everything military-dominant may not be the 
way to approach our situation here, and that we have to use 
sort of smart power.
    We have had a lot of testimony from people about smart 
power, which is to be a balance or a mix of military power and 
other softer power approaches. But I think, you know, it looks 
to us like we are leading with the military here. It looks like 
we are putting an outpost in Africa. And I wonder how we would 
feel if China went over and put an outpost in Africa, or Russia 
or France, or any other country went over and just decided they 
were going to just take their military and go over into Africa, 
set up an outpost, and why that wouldn't be perceived to look 
like somebody is going over to protect their interests as 
opposed to somebody else's.
    Let me phrase the question this way, and I took some time 
to write it down, so I hope you will bear with me on that. 
AFRICOM is essentially continuing Operation Enduring Freedom 
Trans-Sahara and the Combined Joint Task Force: Horn of Africa. 
Both of them exist primarily to combat extremist terrorism in 
their respective regions, the Sahel in the Sahara and the Horn 
of Africa. They relied heavily on Special Operations Command 
Europe in the first, and also on the Special Operations in the 
Somalia area in the second. And there were some reports SOCOR 
took part in the offensive actions, not just supported it, and 
some similar concerns about CENTCOM when it came to Somalia. So 
if it is true that African security is simply not tied solely 
to global war on terror-framed policies, and it is--in essence, 
Africa's true security priorities are hunger, disease, 
internecine warfare, oppressive regimes and crushing poverty, 
isn't using the OEF-TS and the CJTF-HOA as model programs for 
AFRICOM a contradiction to the AFRICOM stated goals? In other 
words, isn't it leading with the hard power and not with the 
smart power aspect of that?
    It seems to me that exhibits an incredible gulf between our 
rhetoric and our action. It seems to me it is going to engender 
a lot of resentment by people there. And I am just curious why 
don't we lead with an effort that is not primarily military-
led? I see a role for the military there, but why don't we lead 
with more diplomacy, with State, with USAID, with cooperation 
with NGO's, with international cooperation on the security 
matters on that and have our military there?
    So, General, I will start with you because you rank and you 
have had a rest, and then we will move on from there.
    General Snodgrass. Thank you very much, Mr. Chairman. It is 
nice to be here with you today.
    A couple of comments on your question. The premise that we 
are leading with OEF Trans Sahel, which is a subset of a State 
Department program, and with JTF-HOA in the construction of the 
command, I think, does not accurately reflect all the other 
things that we are doing, which, in fact, in the subsequent 
part of your question you mentioned. All of those pieces and 
parts that are making up the command today that we are in the 
process of building, that have to do with what we traditionally 
believe soft power to be, are, in fact, the lead of the 
command.
    Now, the fact is that because we are a military 
organization, and we have been given an area that we will have 
accountability for the activities that occur within that area 
means that OEF Trans Sahel and HOA will be a part of the 
command's responsibility. So they will come to us.
    One of the reasons that we are standing up the command, as 
was noted earlier, is to consolidate the efforts of three 
different combatant commands under one organization, one staff, 
and one leader, who can then focus the military aspects, which 
would assist the African nations in their military security 
issues, as well as support other agencies of the U.S. 
Government. But I don't believe that we are really leading with 
OEF-TS and JTF-HOA. Now, that is not to say we are not focused 
on it, because they are important, and there are people out 
there on the continent doing good work, spending money that the 
U.S. taxpayers have given us to do that work, and we need to 
focus on them.
    Mr. Tierney. Here is my issue with that. If our primary 
goal is to help Africa and its needs, and its needs are the 
ones I cited, and clearly, if you go and ask African leaders, 
which Members have done, and you look at experts' testimony, it 
is hunger, disease, it is internecine warfare, oppressive 
regimes, crushing poverty, if those are the primary things that 
Africa needs help with, those are not military-focused items.
    All right. So the question really becomes what the heck are 
we doing sending AFRICOM as a military-led group over there to 
lead up this charge? Why wouldn't somebody who has 
responsibility for all those things be in the lead and have the 
military play its usual role of support in another way, instead 
of setting up a command structure in another continent, as far 
as I know uninvited, and go on on that basis? Why wouldn't 
somebody perceive that as a military presence, that probably 
just goes beyond what they see their needs as? It looks like 
you are going over there to protect oil and fight terrorists 
the same misguided way that we fought terrorists in other 
places, by lumping them all in one basket and thinking they are 
al Qaeda.
    General Snodgrass. Where other agencies have the lead 
today, they will continue to have the lead, and we will support 
them.
    Mr. Tierney. Do you agree, General, it looks like AFRICOM 
is a military outfit? Isn't it a military outfit primarily?
    General Snodgrass. Yes, sir, it is military. We are part of 
the Department of Defense.
    Mr. Tierney. I mean, why wouldn't people think that is a 
hard thing to reconcile with your statement that, well, where 
other groups have the lead, they are going to have the lead, 
but we are going to have like 13 of them and, you know, a 
thousand of the others over there? I mean, who is going to buy 
that?
    General Snodgrass. Sir, we will have to prove that through 
our actions. And as we build these programs, we are focused 
very, very clearly on the issues and the perceptions. And 
sometimes the issues and the perceptions are different. And we 
are fighting perception right now, but we intend to not do what 
you are concerned about.
    Mr. Tierney. OK. Well, when I look at the mission, 
Ambassador Yates, you cited the mission there, it looks pretty 
militarycentric. Military-to-military programs, military-
sponsored activities, and other military operations. Boom, 
boom, boom. You know, and I think somebody reading that is 
going to say----
    Ambassador Yates. If I can just jump in, Mr. Chairman, the 
mission statement, even though it is very brief, and some say 
possibly too pithy, was a long work in progress with a lot of 
consideration. When General Ward was confirmed, he had 60 days 
to examine what the transition team had produced as a 
framework. And we went to an offsite, and we spent 2 days 
looking at this, especially because we were going to be a 
different kind of combatant command with the interagency 
involvement. And at first we looked at security with a much 
wider aperture, and then we brought it back, and Desi Weiland 
helped work here in Washington in the interagency, and there 
was an interagency review of it. And there was a lot of 
concern, and I think at that time, too, in the press that this 
new command was going to be straying in other agencies' lanes.
    And so what we said was we believe that working with the 
militaries--and I am going to digress on this answer because it 
was when Mike was speaking--having spent almost 20 years on the 
continent, security is so important exactly so we can address 
those other problems of disease and poverty, because if you are 
in an area where conflict takes over, those problems just----
    Mr. Tierney. I think we all get that, Ambassador. I think 
the problem is what is leading here and what is going on. If I 
can interject, I think you made your point, unless you feel you 
haven't.
    Ambassador Yates. That is fine.
    Mr. Tierney. And I appreciate that.
    But can any one of you tell me of another country that has 
set up a forward base like we are attempting to set up here? Is 
China going to have a China Command in Africa? Is Russia going 
to have a Russian Command? Is France, or Great Britain or 
Germany going to have a command in Africa?
    Ms. Whelan.
    Ms. Whelan. Mr. Chairman, I think it is fairly well 
recognized that France actually does have military facilities 
on the continent in a number of countries. And the Chinese and 
the Russians have long had significant presences on the 
continent.
    Mr. Tierney. Military?
    Ms. Whelan. Yes, sir. The Chinese and Russian advisors and 
support personnel have provided--have been providing technical 
advice and support, and large numbers of them, to a number of 
countries in Africa for a number of years. Those numbers have 
ebbed and flowed depending upon----
    Mr. Tierney. What is the largest number of Chinese in any 
one location that you think in terms of advisors or command of 
some sort?
    Ms. Whelan. Mr. Chairman, I will have to take that 
question. I would not want to give you----
    Mr. Tierney. Give me your best ballpark, though, because 
you obviously have something in mind here. Are we talking 
thousands, 100, 50?
    Ms. Whelan. Oh, no, we are not talking thousands. We are 
probably talking in the hundreds in some places, where there 
are larger Chinese links and presences. The same was true for 
the Russians; less so now, as Russia has drawn back.
    Mr. Tierney. So they have a presence of 100 or so people at 
a given time in one location as advisors. I think you can 
hardly equate that as to what we are attempting to do here, 
right?
    Ms. Whelan. Well, I guess, Mr. Chairman, I am not sure of 
your question.
    Mr. Tierney. I will make it clear, because I don't think it 
is that difficult.
    Ms. Whelan. Thank you very much, sir.
    Mr. Tierney. We are proposing to sent up a central command 
in Africa. Part of that eventually is going to be that the 
Armyis going to set up a command, the Navy may set one up, the 
Air Force may set one up, the Special Operations may have a 
part of that. You are going to have well over 1,500 to several 
thousand people there on that, a good number of them who are 
going to be military, right?
    Ms. Whelan. No, sir. I am not sure where that information 
is coming from. The AFRICOM headquarters itself will be roughly 
1,300 max personnel.
    Mr. Tierney. Forever. That is it. You are committing to 
that now.
    Mr. Whelan. The headquarters number is currently fixed, 
according to the joint manning document that has been approved 
by the Secretary, at 1,300 personnel. The majority of those 
personnel were never intended to be deployed onto the 
continent. They will always remain off the continent.
    We did intend to have a headquarters presence on the 
continent. Because the continent is such a vast place, 5,000 
kilometers wide, 5,000 kilometers long, in order to be 
effective in supporting our African partners, physical location 
or being proximate to them was important just to cover the 
tyranny of distance. We do have a presence that has been 
established by Central Command, a forward-operating site, and 
Camp Lemonier in Djibouti. That is probably the only such 
presence that we will ever see like that on the continent. That 
presence right now is about 1,500 personnel. That includes 
contractors and the whole host of other----
    Mr. Tierney. There won't be any other regional military 
offices at all----
    Ms. Whelan. There will be nothing like the forward-
operating site in CJTF-HOA or in Djibouti. We do expect that, 
as I said, in order to be effective on the continent, and to be 
able to engage with our African partners and support them, that 
AFRICOM will have to have some staff personnel who spend the 
majority of their time on the continent interfacing with 
other--their other countries. But staff personnel are very 
different, as you know well, Congressman, than troops.
    Mr. Tierney. What I am hearing you saying is that there may 
be staff personnel that go someplace as advisors and work with 
a particular country's personnel on that, but they won't be 
setting up other regional bases or forts or forward presences.
    Ms. Whelan. There is no intent to put forward bases on the 
continent. As you well know, sir, the Defense Department is 
currently engaged in a withdrawal of a large percentage of our 
forces that have been deployed overseas, witness Germany and 
some of the other places where we are actually drawing down. We 
have no intention of reversing that in the case of Africa.
    The whole purpose of the command was to make DOD more 
effective and efficient in conducting its missions in Africa, 
rather than dividing those up among three different commands 
that were distracted by other high priorities in other regions. 
We recognize that the current strategic circumstances in the 
world were such that we couldn't deal with Africa as a 
secondary, tertiary issue or an afterthought within the 
Department of Defense.
    Mr. Tierney. Thank you. My time is up. I want to come back 
at some point in time, I think, and discuss the one-time 
planned intention of putting the command in Africa itself and 
see where we on that, but we will cover that a little later.
    Mr. Turner, I am sorry, I cut into your time.
    Mr. Turner. Thank you, Mr. Chairman.
    Part of the questions that everyone has, and part of the 
struggle that comes through in your answers, is this issue of 
not what are our goals and objectives, because those are fairly 
clear, of the importance of Africa and the interests of the 
United States in being a partner, but there is a perception 
problem in what the total mission will be and how the 
relationship will be with the countries in Africa that overlays 
all of the questions that you are receiving today. It is not 
just Congress that is concerned with what you are doing in 
Africa; Africa is concerned with what is happening in Africa 
and what we are doing with the AFRICOM.
    And the chairman and I were just talking in the beginning 
of this hearing of, you know, part of the concern--and 
Ambassador Yates, you were talking about the issue of how it is 
communicated, and, General, you were doing the same. And it is 
unavoidable that leads you straight to the name of what this 
is; you know, AFRICOM, DOD's newest combatant command. As a 
calling card, it begins the process of this is DOD being in 
command, and over an area that I am certain has a certain level 
of offense, because that is not usually the calling card that 
one has as they entertain partnership command.
    I would like, if you would, to speak a little bit about 
that for a moment and how the reception is occurring as a 
result of our internal lexicon of having this being named 
AFRICOM, and also the issue of, as the chairman was saying--I 
am very interested in this issue of where the headquarters is 
to be located. In one of the materials we have, it indicated 
only one country had come forward with a willingness, but, in 
fact, it is even quite the opposite. You could write the 
sentence that several countries are adamantly opposed, both to 
their own hosting and to the hosting by other countries. And if 
you could talk about that a little bit, because that is the 
interim issue before we get down to execution.
    Ambassador Yates. Congressman Turner, I am going to start 
because you first posited vis-a-vis the Africans, and I feel 
very comfortable in that zone. And also the word ``command,'' 
which was one of the words that seemed most offensive when we 
started our dialog and consultation after General Ward was 
confirmed as the Commander. It is a lexicon established by the 
Department of Defense. It is worldwide. And that is the mission 
of the Department of Defense is to defend the United States of 
America.
    So that discussion aside, we were left with the challenge, 
General Ward and the team that came on board in October, of 
beginning yet again the dialog with the Africans to convince 
them of what we really were setting out to do and explain to 
them. It also is rather confusing to them to talk about 
interagency, because that is just not something that they 
either understand or really care deeply about.
    But what I can tell you, from doing this since October, 
traveling to the continent with some frequency, often with my 
co-Deputy, which there is a message there as well, you know, to 
go have a three-star admiral and myself meeting, talking with 
defense colleges, and CHODs and MODs, there has been a big 
change in the attitude to the Africans because we have been 
listening to them, and General Ward leads by that. When they 
understand that we are going to be about deeds, and we really 
do want to work closely with them in stronger security 
programs--and we frequently use the example of the African 
partnership station that the Navy component of the European 
Command had planned in the last few years--but it is such a 
perfect example of what we can develop into, of having a number 
of nations in West Africa have repeat engagement, do training 
with the African nations coming on board.
    So this is what we have learned by going and having the 
dialog with the Africans is these terms that at first seemed--
and labels that seemed so offensive, once they understand more 
what we really plan to accomplish and why we believe the 
interagency approach, or having the soft power approach, I am 
quite amazed at the change in the point of view.
    And I will close by saying that in May I was back at the 
African Union, and I addressed 44 permanent members from 
nations all over Africa, and their questions, Congressman, were 
not about, well, why is it called this, and are you coming to 
dominate? You know, they said, well, what are you really going 
to do to help us on our civil disasters? You know, what can you 
really help us as far as communicating country to country with 
our militaries as we stand up the African standby forces? So I 
truly believe that we are making progress in our 
communications.
    Thank you.
    Ms. Whelan. I can elaborate a little bit if you would like, 
Congressman. Just to add on to what Ambassador Yates said, most 
recently I have co chaired our Bilateral Defense Working Groups 
with the countries of Morocco and Tunisia. We had very positive 
interactions with them, and they are very eager to continue our 
mil-to-mil engagement, and also to actually increase our mil-
to-mil engagement. And I think they view the Defense 
Department's greater focus on Africa to include them as a very 
positive thing.
    Additionally, I recently spoke in front of a group of 70 
African students attending a French course in Paris. And my 
experience with those 70 African students was very similar to 
Ambassador Yates' experience in the AU. The questions that we 
were getting were not hostile or suspicious; rather, they were 
more questions along the lines of how can the United States 
help Africans address particular security issues? Each student 
had different security issues that they were most interested 
in, depending upon what part of the continent that they came 
from.
    So I think that the response coming from the majority of 
countries in Africa is actually quite positive, and looking 
forward to continuing and expanding our existing mil-to-mil 
relations.
    One other piece of information that I would note is just to 
clarify the record, there is only one country that has come 
forward and come out publicly with their interest in hosting an 
element of the U.S. command. There are actually seven countries 
that have communicated to us through diplomatic channels and 
privately that they would be interested in talking to us about 
possibly hosting some elements of this new U.S. command. Thank 
you.
    Mr. Turner. Thank you.
    I am not certain what portion of the record you wanted to 
correct, but is it not true that there are countries that have 
publicly come out and said no?
    Ms. Whelan. No, I am sorry, there have been countries that 
have publicly come out and said no, they do not----
    Mr. Turner. OK. I just wanted to make certain that wasn't 
the portion of the record that you were correcting.
    Ms. Whelan. No, I wasn't correcting that portion. I was 
just correcting the portion in which it was stated that there 
is only one country that has said yes. And I don't believe it 
was modified by saying there is only one country that has 
publicly said yes. So I just wanted to note that there are 
seven countries that have come out and expressed an interest. 
One of the seven has come out publicly. There are countries 
that have come out publicly and said, no, we wouldn't want the 
command there. But I would also note that we have had no 
discussions with any countries or even asked any countries 
whether or not they would want the command there. These 
statements that they have made, either positive or negative, 
have been of their own volition after no prompting from us.
    Mr. Turner. Well, I appreciate your interpretation of yes. 
I will wait until public is yes, and then I will consider that 
yes.
    I did have one other question if I could just followup, and 
then I am going to be leaving. You had talked about the troops 
that are in Africa and whether or not there will be forward-
operating bases and troops. Could you speak for just a moment--
and perhaps, General, it is best directed to you--we will have 
troops in Africa. We do have troops in Africa. I know I have 
been in Kenya with our Navy SEALs. Could you describe for just 
a moment the presence of troops there and their relationship to 
AFRICOM?
    General Snodgrass. I will go back to what Ms. Whelan said 
about JTF-HOA. If 1,500 is the right number, we will make sure 
we get you the exact number of the actual troops, of the 
military members that are there. There are a relatively small 
number of OEF Trans-Sahel military members. We have military in 
12 different embassies of the 53 nations that will come under 
AFRICOM's purview as part of the embassy country teams. And 
quite frankly, throughout the year, we have literally hundreds 
of engagements that go on with temporary activity on the 
continent of Africa, military-to-military contacts, 
predominantly led by our NCOs that are down there trying to 
professionalize these African militaries. And that is an 
ongoing activity. It has been going on for a long time, and we 
are just going to absorb it into the command.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    With my colleague's grace here, I am just going to ask one.
    Ms. Whelan, I want to clarify one other thing on that. We 
had talked in our conversation about Djibouti being about 1,500 
people or whatever not being there, but no intention of housing 
other people other than advisors here or there. And I 
understand what the General just said about people going off 
training missions. What are these elements that seven different 
countries are willing to entertain?
    Ms. Whelan. This was early on in our discussion, when we 
talked about having--and its elements are staff presence--but 
early on in our discussions, we talked about having an AFRICOM 
headquarters presence on the continent. And these countries 
approached us and said, if you are interested in placing 
something in Africa, we would be interested in talking to you 
about it. And that----
    Mr. Tierney. Would that have replaced what is in Djibouti 
or been in addition to it?
    Ms. Whelan. No, Congressman, it would not. Whatever we 
would be looking at would be in addition. The Djibouti facility 
is an established facility, and we have an agreement with the 
Djiboutians for the next 5 years with rollover options.
    Mr. Tierney. So the seven people were at that point 
contending for or expressing interest in what at that time may 
have been the singular AFRICOM command center?
    Ms. Whelan. They were expressing an interest in this 
command have a presence in their country. They didn't 
articulate what it was that they thought that we were going to 
put there.
    Mr. Tierney. Well, you knew what it was; you intended one 
command presence, right?
    Ms. Whelan. No, we did not.
    Mr. Tierney. That is what I am trying to get at. That is 
the impression I was left after your last conversation. So how 
many command presences were you anticipating?
    Ms. Whelan. We were looking at the continent, and we were 
looking at what might be optimal ways to arrange ourselves on 
the continent. And given the size of the continent, we 
anticipated that it would probably be best that there not be a 
single location and that there be what we were referring to as 
a distributed presence on the continent.
    Mr. Tierney. How many distributions would you be 
contemplating?
    Ms. Whelan. We were looking anywhere in the neighborhood of 
three or potentially four.
    Mr. Tierney. And how large would each of those distributed 
presences be?
    Ms. Whelan. We had not gone to that level of granularity in 
terms of detail. They were just notional based on geographic 
location and on ease of travel and movement within a certain 
geographic radius from the location.
    Mr. Tierney. And what kinds of physical structures would 
one of those facilities have envisioned?
    Ms. Whelan. We had not gotten into detail on that, because 
they were staff presences, we were expecting the physical 
structure to be fairly modest. We were not expecting anything 
really outside of the type of physical structure that our 
embassies currently utilize on the continent. Obviously, we 
would have to maintain force protection requirements, etc. But 
we never really went into any detail on that because other 
things came to the fore in terms of priorities that had to be 
addressed in terms of building the command, but those were 
notional ideas.
    Our objective all along was to ensure that whatever 
footprint that we had on the continent was small and was 
optimized to provide value added to whatever it was that we 
were doing on the continent in partnership with the countries. 
We also avowed that we were not going to go any place that we 
were not welcomed or wanted. So there was no intention of 
imposing ourselves on any country that was not interested in 
having a small U.S. military presence.
    Mr. Tierney. Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you Mr. Chairman.
    I thank the panel.
    Mr. Pendleton, what is the budget, if you know, for the 
AFRICOM component.
    Mr. Pendleton. It is still in development. I think they 
funded it more or less out of hide, as the military said, so 
far. Some of the early numbers we have seen going out from 
fiscal year 2010 to 2015 I think is in the range of around $2 
billion to operate the command headquarters. However, the CJTF-
HOA operation, as well as some plans to improve some of the 
forward sites, it is probably going to add another couple of 
billion that is going to come in out of the supplemental 
probably into the base budget if things go as it looks like. So 
that round figure is $4 billion. Now, that is exclusive of an 
intel fusion center building, new command centers or whatever 
you might need to do for components. A lot yet unknown with it; 
That is just sort of a flag I think.
    Mr. Welch. What is the comparable budget for U.S. 
Department of State in Africa?
    Mr. Pendleton. I might--I don't know.
    Mr. Welch. Anybody know that?
    Ambassador Yates. I am sorry, I don't have that answer.
    Mr. Welch. Is it 10 percent, 5 percent, 20 percent?
    Mr. Pendleton. I have seen figures that we spend $9 billion 
or so in Africa as a government, but that is about all I can 
come up with off the top of my head.
    Mr. Welch. How about USAID, do you know how much we spend 
on that?
    Mr. Pendleton. Not really in the scope of my work right 
now. We can certainly find out for you.
    Mr. Welch. All right. I would be interested.
    General, tell me specifically, if AFRICOM is implemented as 
intended, what three constructive things would it be able to do 
to help the situation stabilize in Zimbabwe? And how would you 
foresee that?
    General Snodgrass. Sir, I will pass that to Ms. Whelan 
because that is a policy decision by the government. If we were 
tasked as a military to go to a country to provide support, we 
would look at what that mission was and develop a game plan for 
it, but that is really a policy decision.
    Mr. Welch. Well, let me ask you about Darfur. What concrete 
things would AFRICOM be able to do to help alleviate the 
suffering in Darfur?
    General Snodgrass. Sir, we would do whatever we were told 
to do by the National Command Authority. And it really depends 
on what the mission is. When you say ``really suffering,'' that 
is relatively broad. There are many, many, many things that we 
can do that we would do in concert with other agencies and 
activities, but quite frankly, I can't really answer that 
question.
    Mr. Welch. That is what I am asking, is what concretely 
specific things would be done, and you are telling me you can't 
tell me that right now.
    General Snodgrass. Sir, when we get a mission, we can tell 
you what we could do to achieve that mission.
    Mr. Welch. How do you define the national security threats 
that exist to the United States in Africa? What are the three 
top threats that you would define?
    General Snodgrass. Sir, I believe that it is widely agreed 
that terrorism is a threat to our national security.
    Mr. Welch. OK. Terrorism.
    General Snodgrass. And the foreign fighter flow from 
Northern Africa into areas where we are engaged militarily.
    Mr. Welch. So terrorism is one?
    General Snodgrass. Yes, sir, I believe that is one.
    I think that the economic prosperity and the stability of 
the governments of Africa is in our national interest, my 
personal view. That is my personal opinion.
    Mr. Welch. OK. I agree with that.
    General Snodgrass. And you are looking for a third national 
security interest?
    Mr. Welch. Yes.
    General Snodgrass. Sir, I think that it is beneficial for 
the United States to have as many friends as possible. I think 
that our role as a leader in the world doesn't mean that we 
don't go anywhere or do anything without our friends. And as 
much as we can help to contribute to that from our piece of the 
pie, we should.
    Mr. Welch. Thank you.
    Ambassador Yates, what concrete things would the 
implementation of the AFRICOM program be able to do, just as an 
example, in Zimbabwe.
    Ambassador Yates. The discussion of whether we are going to 
talk about Zimbabwe or Sudan or Kenya, which there was a lot of 
talk at the turn of the year after the elections there, and 
there were articles in the paper here about, well, what is 
AFRICOM going to do about this, we go back to exactly what 
General Snodgrass said, is, there is a national security 
mechanism here, the interagency that functions here and a 
decision about what our priorities should be.
    And quite clearly, Assistant Secretary Frazier at the 
Department of State had the lead on Kenya, and they went to the 
interagency and made decisions. If the decision would have been 
taken by the interagency that a military command--at that 
point, it would have been the Central Command; if it was 
somewhere other, a Sub-Saharan Africa, it would have been the 
European Command--to implement a decision of our national 
policy, our foreign policy, then that is exactly what we would 
do.
    But we hope, with the new command, because as we sit in 
meetings and making decisions about programs and our planning, 
we already have USAID. We have State Department. We have a 
Treasury person. We have people from Energy interested in 
coming. We have the Coast Guard. So we are already better 
informing what plan it would be.
    Specifically on Zimbabwe, I think the decision has to be 
taken by our policymakers as to what the intervention would be. 
I can say separately from that, is we are working hard with the 
Southern African Development Committee [SADC], because working 
with the other nations of South Africa and their militaries is 
important. But that is also a challenge to work----
    Mr. Welch. I apologize. I have a preference for defining a 
problem and then creating the organizational structure around 
the goal of solving the problem. And what I heard from the 
witnesses so far is the establishment of a process that is in 
search of a problem, with the exception of the General's 
comment that terrorism is, as I agree, a threat to the United 
States.
    And there is no one who disagrees about the importance and 
value of coordination. I think there is a lot of question as to 
what very specifically and concretely is the mission that the 
organization is going to pursue. So I think that is where a lot 
of the doubt is. If we have a military mission, which obviously 
dealing with terrorism is, that is a job that the military does 
better than anybody else.
    So far, we have had one country that has invited us in 
militarily; is that right, Ms. Whelan, publicly?
    Ms. Whelan. Publicly, Congressman, yes, one country 
publicly.
    Mr. Welch. How many countries have invited us not to come 
in militarily?
    Ms. Whelan. Publicly, 1, 2, 3--3, 4--excuse me, 4.
    Mr. Welch. Well, I mean, the question I have is this. I 
think when it comes to terrorism, if there is a threat to the 
United States, then the military has to do what it has to do 
to, seek cooperation but not necessarily permission.
    But when it comes to dealing with disease and famine and 
these unstable governments, it is quite another matter. How 
many--we have had one government that has invited us in.
    What militaries in the African continent--I will ask you, 
General--do we currently have close ties with?
    General Snodgrass. Sir, I would take that from the opposite 
direction. There are very few militaries that we don't have 
ties to on the African continent. Quite frankly, we have 
engagements going on throughout, with the exception of 
Zimbabwe, right now. And I believe Ms. Whelan can probably 
answer that better, but let me give you a little context to my 
answer.
    When we combine three different combatant commands' worth 
of efforts into one combatant command who can focus and 
advocate for the military-to-military assistance programs on 
the African continent, that is solving a problem. And I think 
that the establishment of our command allows us to do that.
    In my previous job I was in charge of the U.S. Air Force's 
engagement activities both in Europe and in Africa. That was a 
tremendously difficult task because there were 93 nations 
involved. The luxury of being able to focus in a particular 
area and to put all of your efforts into that job is what 
AFRICOM brings, and I believe it is time that we do it.
    Mr. Welch. Well, you know, there is not a debate--I don't 
dispute the advantage of having streamlined lines of 
communication and authority, so you can do your job better.
    I think there is a big question here as to whether we are 
putting more emphasis on the military than is appropriate. That 
is the question. I mean, when I have asked this question to 
Ambassador Yates about what specific things we are trying to 
accomplish, I didn't get an answer. With all due respect, I got 
a detailed process.
    And I yield back the balance of my time. Thank you.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Lynch, you are recognized for some time.
    Mr. Lynch. Thank you, Mr. Chairman. I appreciate that.
    And I want to thank the panel for coming before us to help 
us with our work. I have actually seen instances where the 
partnership between our military and USAID and State has 
actually worked out pretty well.
    However, I think the conditions and the situation were much 
different than we have I think in the average situation in 
Africa. I know it worked very well in Afghanistan. It continues 
to work very well. But, in that instance, the military profile 
being what it is, it was unavoidable. We went in there 
militarily first, and then we brought in USAID and others to 
try to help with the humanitarian dimension of this.
    And I think there may be a few instances in Africa, I think 
certainly Somalia, I think having gone to Darfur recently I 
think there are some situations where if we are going in with 
USAID, I think it will be a good idea to have some level of 
military protection with those folks. But, again, that is a 
very slim minority of situations, I think.
    And it doesn't--I tend to agree with the chairman that for 
us to adopt a policy and go in there with a frontal 
presentation of military force, I think it is a projection that 
we probably don't want to make in that way on this continent at 
this time.
    Let me ask, one of the problems I also saw when there was a 
partnership between DOD and USAID is that--and I heard 
complaints from the USAID people--is that there was also a 
contracting out process that was going on within USAID. So it 
wasn't our government doing a lot of this humanitarian effort. 
What they would do is, the administration is subcontracting out 
all the humanitarian stuff to individual contractors. And a 
couple things it does: It relinquishes a certain amount of 
control that we have. And also those private contractors are 
not necessarily the face of the United States.
    And I am just thinking, Ambassador and General, is that the 
model that we are anticipating for AFRICOM? Are we going to 
have the military doing--you know, the United States doing the 
military part of this, and we are going to have some contractor 
doing the humanitarian part of this? Is that the model? I know 
it saves money, but it doesn't necessarily accomplish the 
mission that I think we should be doing.
    Ambassador Yates. Congressman Lynch, thank you.
    Let me just respond briefly. In Africa, each embassy has a 
country team headed by an ambassador. And we almost all have 
USAID missions, we have a defense attache. And so what our job 
is in that country is to prioritize the U.S. Government 
policies and priorities and figure out how they are all going 
to work together. That exists and has existed for a long time. 
And I always enjoyed finding out what resources DOD could bring 
to that table. Obviously, USAID had more money almost always 
for the missions, for the bilateral missions, and what you were 
implementing, whether it was going to be working on capacity 
building or their health problems or education problems.
    So what we believe can happen by this new structure is DOD 
resources, and sometimes they are not in actual funding that 
would flow into the same kind of programs, they are going to be 
working with the military, but they also will be looking for 
opportunities where a crisis is happening, whether it is a 
natural disaster or whatever, where within that country team we 
can get the advice and decide the program and how we can more 
effectively integrate what the military is going to do.
    So I think there is a misperception to think that--I mean, 
USAID is there and they are not working with or without any 
military assistance, I mean or protection, if that is what you 
were implying in the beginning of it. And almost all USAID work 
and even U.S. military humanitarian assistance, we work with 
NGO's on the ground. These are not contractors. These are NGO 
partners. Sometimes they are African NGO's. Other times they 
are international NGO's, because they live and work there and 
they know exactly how to implement the programs. So, to me, 
what I see the value added of this campaign of what we are 
building, and we are just in the building phase, is to be able 
to inform the decisions of how we can use the money that is 
allocated by the U.S. Congress to more effectively bring about 
peace and security and stability in those nations through the 
country teams in the programs that already exist.
    Mr. Lynch. General.
    General Snodgrass. Sir, if I could, two real world examples 
that are going on today of our engagement with the Africans: 
There is an exercise that is called African Endeavor. EUCOM is 
running African Endeavor as we speak. We have invited, I think 
the number is 28 different nations of Africa to participate in 
the country of Nigeria in this exercise. It is a command and 
control exercise where we train African militaries on how to 
produce and distribute command orders the way that we do it in 
the United States. It is a very beneficial and the most widely 
participated exercise across the board in Africa.
    The other is a med flag that we are doing. It is a medical 
opportunity that we give. This time it is in Bamako, Mali. In 
Mali right now, we have medical experts on the ground training 
African med techs on tactics and procedures that we use in the 
field, in the medical field. We do this with construction. We 
do it with finance people. We do it with maintenance people. 
This is the kind of interaction that AFRICOM brings, military-
to-military contacts, that help them to be better militarily to 
provide for our own internal security.
    Mr. Lynch. Thank you.
    I yield back.
    Mr. Tierney. Thank you, Mr. Lynch.
    Ms. McCollum, you are recognized for 5 minutes or more.
    Ms. McCollum. Thank you, Mr. Chairman.
    Let me first say that the work that all of you do is very 
important, but the roles that you have are very different. And 
what I am going to do is just take a second and kind of read 
the way this is being described in journals and papers that we 
get here. This is--I want to give you the citation, excuse me.
    This is from the Center for American Progress: With other 
regional combat commands, AFRICOM will have responsibility for 
U.S. military operations in particular areas of responsibility.
    It goes on. It says: Yet it is distinguished from other 
regional commands because its primary mission will be 
conducting nonmilitary operations rather than counteracting 
threats to the U.S. interests in Africa by preparing and 
engaging in combat. AFRICOM will attempt to promote stability 
through humanitarian operations.
    Then it goes on to say: The State Department and USAID will 
be embedded in its command structure to help direct 
humanitarian operations across.
    Now, these aren't your words, but this is why you are 
getting some of these questions, OK? That they will do outreach 
to other U.S. Government agencies.
    Finally, in 2005, USAID established the Office of Military 
Affairs to strengthen its institutional relationship with the 
Defense Department.
    My gosh, USAID had to come up with an Office of Military 
Affairs to talk to the Defense Department, which means that 
something has gone awry.
    I want to just pick out one other point, and then I am 
going to come to a question.
    This is from a CRS report: The involvement of the U.S. 
Government agencies in the DOD planning department, planning 
processes to do with AFRICOM, interagency coordination of the 
U.S. security policy involves a variety of officers and actors 
in Washington, DC, and it goes on to list them all. So the Bush 
administration has noted a proposal for the new command that 
represents an evolution in the involvement.
    This evolution, and I will--this is from your testimony, 
Ms. Whelan--AFRICOM will include a significant and carefully 
selected number of representatives from other U.S. agencies 
within its staff, including officers from the State Department 
and USAID, and you go on and on and talk about NGO's.
    I don't disagree that having three parts of the military 
organization being responsible for Africa is not an efficient 
way for the military to plan. I don't have a problem with the 
military realigning itself that way. I just came back from 
Algeria and Tunisia and meeting with country teams there and 
asking other Ambassadors from other parts of the world, our 
Ambassadors, you know, does the DOD footprint and the State 
Department footprint, should they align? Should they complement 
one another so that there is great communication going on 
between the two organizational units, the Department of State 
and the Department of Defense? Oh, yeah.
    Are they aligned? Nope, but they should be, ma'am. That is 
what I heard from everyone.
    I have no dispute with that. But what we are hearing with 
AFRICOM is that the military is going to take the lead, and 
USAID and State and the rest aren't complementing, aren't 
equal, but somehow or another are going to be reporting because 
everything is being placed underneath AFRICOM.
    When you say AFRICOM is the head and everybody falls in 
underneath it, my question then becomes, what role does an 
ambassador have in a country if there is AFRICOM? So could 
someone please make it crystal clear, or if you can't, I think 
we have a real problem here in the way that we are starting to 
blend the role of the military and the role of the State 
Department. They should complement one another, but there 
should be no confusion. There should be a very bright line.
    Ms. Whelan. Congresswoman, I couldn't agree with you more. 
And this is something that we have been trying to emphasize 
repeatedly in the last 18 months, that I have personally tried 
to emphasize in every public speaking engagement, whether it is 
with Africans, whether it is with your staffers, whether it is 
up here on Capitol Hill or anywhere else. Apparently, I am not 
articulate enough to get the message across, but for the 
record, Africa Command is a Defense Department organization. It 
is a Defense Department organizational realignment done because 
the Defense Department recognized that its organizational 
structure was suboptimal in terms of accomplishing the missions 
that it needed to accomplish vis-a-vis Africa and the current 
global security environment.
    It was also suboptimal in terms of improving the interface 
with our colleagues in other U.S. departments and agencies. And 
so DOD undertook to transform itself. As part of that 
transformation, we recognized that it would be better if, at 
working levels, DOD was able to communicate more early and more 
often with their professional colleagues at other U.S. 
Government agencies. And so we sought to make the command 
structure friendly to this kind of communication, not just 
through liaison relationships, but through, hopefully, 
importing knowledge, not authority, but importing knowledge 
from these other government agencies to help inform DOD 
personnel in AFRICOM as they were developing DOD plans for DOD 
activities related to DOD missions on the continent in terms of 
our military relationships.
    Ms. McCollum. Then let me ask you whether or not you agree 
or disagree with this statement that I am going to read. And I 
quote from this document from the Center for American Progress: 
``yet it is distinguished from other, AFRICOM, from other 
regional commands because its primary mission will be 
conducting nonmilitary operations.''
    Ms. Whelan. I totally and completely disagree.
    Ms. McCollum. Thank you.
    Thank you, Mr. Chair.
    Mr. Tierney. Thank you, Ms. McCollum.
    I am more and more struck by your testimony, Ms. Whelan.
    You intended--in one statement of your written testimony, 
you wrote, the intent is not for DOD generally or for U.S. 
AFRICOM at the operational level to assume the lead in areas 
where State and/or USAID have clear lines of authority as well 
as the comparative advantages to lead. Then your written 
testimony notes that AFRICOM's primary mission is, ``conflict 
prevention.'' Elsewhere you note that AFRICOM's focus is on war 
prevention and preventing problems from becoming crises. It 
sounds to me like that is more of a diplomatic mission than a 
military mission, and I think that is where some of the 
confusion comes in and on that basis.
    Ms. Whelan. Congressman, may I take a moment?
    Mr. Tierney. Sure.
    Ms. Whelan. Thank you.
    Conflict prevention, crisis prevention, you are absolutely 
right; I could not agree more that the lead in those areas is a 
diplomatic lead. No question about it. However, DOD, Defense, 
has a role to play as a supporting actor in that. And so when 
we say that AFRICOM will be focusing on conflict prevention, 
crisis prevention, preventing problems from becoming conflicts, 
etc., you have the words, we are saying that in the context of 
working on DOD's slice of the pie, that what we are saying is 
that we are making that our primary focus instead of our 
primary focus being on practicing on how we are going to 
respond when the six alarm fire goes off, we are instead going 
to--and not to say that we wouldn't be able to respond when the 
six alarms go off--but we are instead refocusing ourselves and 
saying it is very important for us, it is not a secondary task, 
but it is very important for us to work with African militaries 
and help them prepare to address security problems in their 
countries in ways that respect human rights, the laws of war, 
etc. So that is our slice of the conflict prevention. We are 
not trying to take over someone else's slice. That is the 
context.
    Mr. Tierney. I get it. I get it. I think many of us get it.
    I think what we don't get is we have the tail wagging the 
dog here. If the military's role is mostly supportive in these 
areas and if we really are believing our rhetoric to Africa and 
others that we really want to do the things that address their 
problems, hunger prevention, disease and all of that, then why 
are we leading with, why do we put the military in charge of 
all of that, even though they are just a supportive role in 
most of those diplomatic and aid and development areas? Why 
don't we have a U.S. strategy that deals with all of those 
areas and gives the military their slice of it but not 
necessarily the lead in all of that. And I think that is 
probably not your answer to make. You can give it a shot if you 
want.
    Ms. Whelan. Well, all I would say, sir, is that certainly 
the Defense Department was simply looking at its slice, and we 
realized that we were not doing our job very well.
    Mr. Tierney. I understand. And I think, just to help you 
out a little bit, and me, too, I think that Secretary Gates got 
this long before the rest of the administration got it, and it 
was a vacuum, and he stepped in. And to his credit, he saw that 
everything isn't like Whack-A-Mole, something sticks his head 
up and you punch it militarily; that you need a broader 
perspective. I think, and you don't need to answer this, I 
think the problem is the rest of this administration was sound 
asleep--Congress takes some responsibility for that, too--in 
developing a national security posture and an international 
posture that has a lot broader rationale than just military and 
then assigning it with a proper role, so the military stepped 
in to fill the vacuum.
    I think what we are questioning here, some of us are, is 
that the proper lead entity on this, or if all the roles that 
you say for the military are truly there but not necessarily 
should they be the lead organization in this broader 
perspective, and those are the things we will flush out.
    General Snodgrass. Could I add something to this discussion 
before we move on for Congresswoman McCollum?
    As someone who has commanded a base in a foreign country 
and worked with Ambassador Larocco and his country team on a 
daily basis; as someone who has basically built the engagement 
program for the U.S. Air Forces Europe and Eastern Europe and 
Africa; and now as a member of a brand new team, let me make a 
couple of points.
    First off, nothing happens in those countries without the 
Ambassador saying they want to do it. We may come up with some 
ideas, and we will take them to the country teams and the 
Ambassadors. But unless they say go, nothing happens. Once they 
say go, we have a role to play in many, many activities. As a 
practical exercise in building our staff right now, we are 
going through a humanitarian disaster relief scenario. Part of 
that scenario is the Ambassador and the country team asking for 
assistance on behalf of a country. Now, we have a person named 
Angela. Angela is the OFDA rep, the Office of Foreign Disaster 
Assistance. Angela sits in our operation center, which is a 
converted chapel, because that is all the space that we have. 
Angela basically stands up, lectures, educates, guides, 
counsels the entire staff as we are trying to formulate how we 
would supply the DOD part of humanitarian disaster assistance 
that often is the lead for our government. But she is right 
there. She is integrated with the staff. And then we put 
together the game plan. We go to our Ambassador and say, here 
is what we think we can do to help. And we have that 
discussion. And then, once we are given the approval, we press 
forward. That is how AFRICOM is going about solving our piece 
of those problems.
    Mr. Tierney. Well, in line with that then, General, Senator 
Feingold asked at a particular hearing whether or not lethal 
force or actual force of any kind would require approval by the 
relevant Ambassador.
    Ms. Whelan, you answered, no, that Ambassador sign-off was 
not required. When the Senator asked you to elaborate on the 
response, you said, how will the United States--you asked how 
will the U.S. Government maintain chief-of-mission authority if 
no Ambassadorial approval is needed for the use of lethal force 
by the U.S. military within the relevant country? I think that 
is the question that we have for you today.
    Ms. Whelan. Congressman, I think it is important to 
understand that, in context, the use of lethal force is only 
authorized under an execution order which has been signed by 
the Secretary of Defense in his role as part of the National 
Command Authority with the President or taking direction from 
the President. Execution orders are coordinated with the State 
Department and the National Security Council before they are 
issued. So no execution order is ever issued without the State 
Department actually having already coordinated on it. And so, 
therefore, the Ambassador has his input into that execute order 
because it is signed.
    Mr. Tierney. Would that were 100 percent true, but we have 
had reports of Ambassadors not even aware that there were 
military personnel in their country. And that is the problem. 
So that is why we raise that issue.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman, thank you so much for 
having this hearing, and my colleagues for participating in it.
    I don't feel I have a dog in this fight. In other words, I 
haven't formed my own opinion. But I do react sometimes to what 
I hear, and then I take the other side, but it doesn't 
necessarily mean that is where I am at. I just feel like I need 
someone to help sort this out.
    The way I look at it is the Department of Defense could set 
up an AFRICOM model and include no one from State. It could 
just be Defense. Now, the challenge is, we don't have bases 
much around Africa. And I suspect, being a former Peace Corps 
volunteer, that some of that deals with colonialism, and they 
don't want that kind of camel's head under the tent.
    But we all know that a number of countries are 
dysfunctional. They weren't prepared to be on their own. The 
colonialist didn't help them prepare for that day. They didn't 
want that day to happen. And we have seen countries' gross 
domestic product going the opposite direction.
    Africa it seems to me is just really unique. From my mind, 
I am thinking, well, hats off to DOD, that they say, let us 
have a--instead of dividing Africa into three parts, it is this 
wonderful continent, huge in resources, tremendous potential of 
people and resources. And I am saying, this is a new model. It 
is a new model. I don't think we have seen it happen anywhere 
else.
    What is unique about what this committee does is we have 
oversight over State and Defense in terms of investigations and 
programs. So you are really at the committee that really deals 
with both. There is a kind of irony to that. You know, we have 
focus on State and Defense, so do you.
    So the fact that you haven't reached that 25 percent, that 
is the story. But I don't know how significant it is. I never 
had a sense that somehow DOD takes over for State in Africa. We 
don't allow it. The Ambassador is king, basically, in that 
area.
    What we do have around the countries are DOD people and FBI 
folks and so on working within State, which is kind of an 
interesting concept. We have like 50 percent could be non-State 
people working in our embassies, which makes sense as well. 
Some of the best relationships around the world have been 
developed by the military. When I go into France, I learn more 
from the military about certain State issues, diplomacy issues, 
and it is true in other parts.
    So my sense is this is--given that we don't have bases, 
there is logic to this. Otherwise I think DOD kind of floats 
around in mid air. It seems to me, getting involved in the 
nonmilitary side is something that we have wanted our military 
to do as long as it doesn't hold down our State. You know, are 
they mutually exclusive?
    So my question to you, Ms. Ploch, is react to what I have 
said and tell me what you see that is positive and what you see 
that is negative.
    Ms. Ploch. Thank you, Congressman.
    We have both discussed the problems posed by Africa being 
divided among three combatant commands. There are also problems 
posed by the fact that Africa, up until now, under EUCOM, which 
had 90-plus countries in its area of responsibility, half of 
which were African, I think 40-some, 48, couldn't focus all of 
its efforts on what you have identified as the unique security 
challenges in Africa.
    Mr. Shays. So the first thing is, you, as an observer and a 
student of this and an expert on this, see sense in the fact 
that we are focused on Africa from a military standpoint?
    Ms. Ploch. Absolutely, you have an intelligence component 
and a planning component that now are focused entirely on 
African security challenges.
    Mr. Shays. Tell me some more positive before we get into 
the negatives. Is that the big positive? Is there any other 
positive?
    Ms. Ploch. That is indeed a positive. It is a positive that 
you will have a commander now coming to talk about African 
security challenges rather than African, European, Afghan 
security challenges. I think the----
    Mr. Shays. Let me ask you this. Is it a positive that we 
are getting the Department of Defense to think in terms of soft 
diplomacy as well as so-called hard diplomacy? I mean, isn't 
that a positive as well?
    Ms. Ploch. Well, I think they already have been looking at 
soft diplomacy. If you look at what AFRICOM is proposing to 
take on right now, it is activities that are already under way 
with EUCOM and CENTCOM. It is peacekeeping training. It is 
counterterrorism and insurgent training. It is training African 
militaries through international military education and 
training in foreign military financing. These are all somewhat 
soft power efforts to build partnership capacity so that the 
African militaries can take on these African security 
challenges.
    Mr. Shays. That is a positive. I am going come to the 
negative in the second.
    Mr. Pendleton, what are the positives?
    Do you agree with Ms. Ploch.
    Mr. Pendleton. Yes, I was just going to parrot what she 
said. I mean, focusing on Africa likely has some value, and it 
is within the purview of the Department of Defense's authority. 
Whether the concept will work over time just remains to be 
seen.
    Mr. Shays. Does the fact that we really don't have bases 
that we can have a flag ship on land present a unique challenge 
for AFRICOM?
    Mr. Pendleton. Yeah, I would think it does.
    Now, we do have some locations there, warm bases and such, 
that we can use. And we have a number of people in Djibouti.
    Mr. Shays. Bases we can use or bases we control that is our 
land, which?
    Mr. Pendleton. I don't know. I probably would have to defer 
to Ms. Whelan on someone on that exactly.
    Mr. Shays. General.
    General Snodgrass. Sir, the military laid down outside of 
JTF-HOA consists of cooperative security locations which are a 
couple of shelters with desks and potentially some equipment in 
it.
    Mr. Shays. But no base?
    General Snodgrass. No bases.
    Mr. Shays. Thank you, General.
    Ms. Ploch, tell me the negatives or the concerns, the 
watch-out-fors.
    Ms. Ploch. Well, there are a number of concerns. Obviously, 
we have talked about African concerns, a perception that this 
is a neocolonial effort. Colonial memories are still fresh in a 
lot of the continent. And the idea of a U.S. troop presence is 
very concerning for a lot of Africans. And I think that the 
AFRICOM team has done some efforts to talk about the fact that 
this is a staff presence rather than----
    Mr. Shays. But that suggests we are not going to have a lot 
of military in Africa; correct? Does it or not?
    Ms. Ploch. That is my perception; that our troop presence 
is what we have in Djibouti.
    General Snodgrass. Sir, one of the things we discussed 
before you came was that we have hundreds of engagement 
activities that occur every year on the continent of Africa 
now, but those are temporary. They are not a permanent 
presence. And if your question is about permanent presence, 
then the answer is----
    Mr. Shays. I am talking about permanent bases.
    General Snodgrass. Yes, sir, we have no intention of 
building large permanent bases.
    Mr. Shays. Some other dangers, and then I will relinquish 
the floor here; watch-out-fors.
    Ms. Ploch. Sure. I don't know if you call it a negative, 
but it is something that Congress is looking at right now, and 
that is funding for security assistance activities and the 
authorities for security activities. AFRICOM has identified 
this is as a main priority of their mission. And security 
assistance has been traditionally led and funded by the State 
Department. Programs like IMET and FMF and foreign military 
sales. We have seen, since 2006, an increasing number of 
programs that are DOD-led; Title X authorities; 1206 is one of 
these authorities. And this has grown significantly larger than 
the State Department funded and led security assistance 
programs. I think it is about three times larger than IMET 
right now in terms of funding. So there are some questions 
about State Department's authority to guide those security 
assistance priorities that I think Congress is looking at right 
now.
    Mr. Shays. Let me just quickly ask, the negative, do you 
agree or have anything to add?
    Mr. Pendleton. Yeah, I think those are accurate.
    But I would like to provide a little bit of perspective on 
this. I mean, I am a professional critic, but this is a cart-
before-the-horse story put simply.
    Mr. Shays. It is what?
    Mr. Pendleton. A cart-before-the-horse story. We announce a 
lot of things before we work things out. We have seen this 
before. At the risk of revealing----
    Mr. Shays. No, let me ask the question, though. You make 
that sound like it is a negative. What is wrong with having an 
objective--let me just make the question before you are shaking 
your head. Maybe I am not understanding you. What is wrong with 
having an objective, telling Congress this is our goal? 
Frankly, most of the time, they do it and don't have a plan and 
don't tell us the goal, and we can't judge them. Here they are 
at least saying this is what they would like. Why is that a 
negative?
    Mr. Pendleton. I don't think it is necessarily except you 
have to work out the details. What this reminds me of----
    Mr. Shays. And that is what we are doing.
    Mr. Pendleton. Absolutely.
    In the late 1980's, during the drug war, again at risk of 
revealing my age, what we saw was first deconfliction, because 
that was very much an interagency issue as well, then 
coordination, and the Holy Grail is integration. This takes 
time. Large scale organizational transformations typically take 
5 to 7 years. So I think rationalizing expectations here is 
extremely important.
    Mr. Shays. Just one last question, and that is, the number 
that was said in this hearing was we, throughout all of Africa, 
we only have 1,000 State Department employees. Was I hearing 
something false? I mean, that is a number that is easy to get. 
What would the number be? I mean, my God, we have almost 1,000 
probably just in England in that one embassy.
    Ambassador Yates. I can't answer that, Congressman, the 
exact number, but that would not surprise me. We only have 
about 6,500 total all over the world, so if 1,000 were in 
Africa that would not surprise me, especially when we think of 
how many are in Iraq and Afghanistan right now.
    Mr. Shays. Thank you very much, all of you.
    Thank you very much, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Higgins, you are recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just an issue relative to interagency staffing. Just for 
context, you know, we are talking about the continent of Africa 
and, perhaps, Ambassador Yates, the number of countries 
included in this jurisdiction.
    Ambassador Yates. Congressman, the number of countries that 
will be in the jurisdiction of the Africa Command? If my math 
is correct, it will be 53. It will be every nation on the 
African continent and island nations, with the exception of 
Egypt, and we will have a special relationship with Egypt, and 
we as a Nation don't recognize the Western Sahara.
    Mr. Higgins. Where will AFRICOM be physically located?
    Ambassador Yates. The headquarters is being built in 
Stuttgart, Germany, and it will be there for the foreseeable 
future. It cannot move even to another place off the continent 
before--is it 2011, Theresa, for budgetary?
    Ms. Whelan. 2011.
    Ambassador Yates. It would not move before 2011 even off 
the continent for budgetary reasons. But we invite you all to 
come and visit, because I think it was very interesting, Mr. 
Pendleton, what you said about how hard it is. I think those of 
us who are taking on this endeavor know that this is one of the 
most difficult and challenging jobs that any of us have ever 
had, but I wouldn't be in this position as a senior State 
Department officer secunded to the military if I didn't believe 
it was something right to be doing for our Nation for the 
future. But come visit us and see what we are building.
    Mr. Higgins. I understand. It has been referenced here, but 
just could you elaborate a little bit further about why Germany 
and not the continent itself?
    Ambassador Yates. Yes. And General Snodgrass, help me a 
little bit here. I was the foreign policy advisor for the 
European Command. And of course, the majority of the nations 
are and still, until October 1st, are part of the European 
Command, the Sub-Saharan African nations.
    They looked around for a place for the transition team to 
set up after the planning team did the work here at Bolling Air 
Force Base. And it made sense because the work that was already 
going on, all the missions, all the theater security 
cooperation activities, were being directed, or the majority of 
them, right there in Stuttgart. So that is how that came about. 
And Kelley Barracks had some empty, albeit not renovated, 
buildings that we could use.
    General Snodgrass. And, sir, the transfer of those 
activities really required physical presence. We are currently 
transferring over 134 missions, activities, programs, and 
exercises, of which 69 are coming from EUCOM, 50 are coming 
from CENTCOM, and 15 are coming from the Pacific Command. The 
physical location of a lot of that in Stuttgart allowed us to 
transfer people from the U.S. European Command directly to us 
without moving their families and pulling up their roots, but 
allowing them just to come to work in a different place. That 
was a real benefit to us.
    Mr. Higgins. So 54 nations, excluding Egypt, based in 
Germany. Any of the African nations wanting AFRICOM presence in 
their country?
    Ambassador Yates. Theresa, maybe you need to take this.
    We have had this discussion, Congressman.
    But I think, being loyal to General Ward, I feel like one 
thing he has really accomplished is moving the discussion away 
from presence on the continent, and instead, it is developing 
the relationships and nurturing the relationships with the 
African militaries. And he says to us, it is about deeds and 
actions. So when we go backward to the discussion of any 
location on the continent, I don't think it is productive for 
the future of the command, for the immediate future.
    Mr. Higgins. I have no further questions.
    Thank you.
    Mr. Tierney. Thank you, Mr. Higgins.
    You know, maybe there is some confusion in my mind. But I 
keep looking back at the testimony, and I look at CRS's report 
as well: CJTF-HOA also conducts civilian military operations 
throughout East Africa as part of an effort to win hearts and 
minds and enhance the long-term stability of the region. These 
civil military operations include digging wells and building 
and repairing schools, hospitals and roads. They are also part 
of the broader CENTCOM mission to counter the reemergence of 
transnational terrorism. Some observers question whether some 
of these activities might be more appropriately coordinated by 
a civilian agency or nongovernmental organization than by the 
U.S. military.
    Are they correct in questioning that, Ms. Whelan?
    Ms. Whelan. CJTF-HOA does have military engineers, military 
medical personnel, CBs on board in CJTF-HOA. And those 
individuals do support the U.S. Government's foreign policy in 
the Horn of Africa by conducting small projects that involve, 
in some cases, repairing a school or digging a well. These are 
skills that are inherent to DOD that DOD requires. They are 
engineering skills. Having our personnel work on their skills, 
hone theirs skills while doing something that provides benefit 
to U.S. foreign policy and achieves a U.S. foreign policy 
objective seems to be a good marriage of those skills and U.S. 
foreign policy. All those activities are conducted in 
coordination with the U.S. embassy. None of them are conducted 
by CJTF-HOA without having previously discussed the project 
with the U.S. embassy, gotten the U.S. embassy's support, and 
oftentimes, the CJTF-HOA is actually working hand in glove with 
USAID in terms of USAID's overall strategy for the particular 
country and/or for the region. So it is just a resource that is 
on hand. It is a capability that is on hand that we do need to 
exercise for our own defense purposes but that we can exercise 
in support of USAID.
    Mr. Tierney. You know, that is interesting. When we were in 
Afghanistan, there were military leaders there begging for that 
kind of support to do some of the work that was needed there 
for digging wells and building roads and whatever, and we 
couldn't find it. Here it is all this time in Africa 
apparently. And the question would be, why is it there rather 
than in Afghanistan? But in both cases, I think the general 
impression is, these are civilian-type efforts that, sure, you 
might supplement it with military personnel when it is 
necessary or whatever, but don't we really run a paucity of 
people to fill those billets on the civil side? Isn't that part 
of our problem in Afghanistan, as well as perhaps looking 
forward to what kind of a hat we want to wear when we go out 
and do these things in Africa? In other words, that we need 
more people familiar with agriculture, familiar with the rule 
of law, familiar with engineering, all of those things to go 
out and do these civilian types of efforts, whether it be 
Afghanistan or whether it be Africa, unless we want to run the 
risk of being perceived that this is just another military 
endeavor where the U.S. military is coming in to protect their 
interest on that?
    Ms. Whelan. Certainly, Congressman, I don't think anyone 
would disagree that, if there were more civilians available 
with these capabilities, that would be a very good thing.
    Mr. Tierney. Ambassador, where do we stand with that? Are 
we trying to buildup that capacity? I know that we absolutely 
lost a lot of capacity when we outsourced a lot of work in some 
of these countries. In Pakistan and in Afghanistan, in 
particular, we outsourced a lot of work, and we lost the 
internal, in-house capacity to have those types of civilian 
people out there. Are we doing anything to turn those things 
around and build those numbers?
    Ambassador Yates. I understand that Secretary Rice came and 
asked for 1,000 more positions in recent days, and I certainly 
fully support that. I know USAID has had a similar initiative. 
It still means the numbers are dwarfed in comparison to what we 
could use within each of those. So I support any plea to fund 
the positions that have been requested.
    Mr. Tierney. Well, I guess I would wonder why, if we really 
see this as an effort of trying to meet, and I keep going back 
to this because I think it is the crux of it, what Africa's 
concerns are--their concerns are poverty. Their concerns are 
hunger. Their concerns are not having the rule of law. Their 
concerns are about some of the oppressive regimes there, 
internecine warfare or combatting. If those are their concerns, 
it seems to me we would put together a structure on the 
continent to deal with those, as opposed to having a military, 
hope that we find enough people that are trained and want to 
hone their skills and doing some of those skills that affect 
those other areas on that. And I would think that is the kind 
of budget that would be coming, presented to Congress. We need 
this many engineers. We need this many people from agricultural 
backgrounds. We need this many people from the Commerce 
Department to help them set up businesses and things of that 
nature; this many transportation engineers and people to dig 
wells, all of that; and by the way, a part of our budget is we 
need a security apparatus as well.
    But what we hear is, we need this large military 
appropriation of which we will try to do everything. We will 
try to have the military do all of those things on that. It 
seems to me that we are not necessarily getting it in the right 
order or seeing the numbers the way they ought to be broken 
down if our mission is really going to follow our rhetoric on 
that.
    Ambassador Yates. I don't disagree with what you say, and I 
think that Secretary Gates has articulated that the same way in 
several major speeches, that we need to get our foreign affairs 
agencies in balance so we that we are putting together our 
foreign policy with the right agencies to implement them.
    Mr. Tierney. And I hate to have him being the only one out 
there singing that song, though. And I think it would be nice 
if somebody would listen to his music and then write the 
script. Where is the budget that symbolizes something of that 
nature actually happening? A thousand more people is a start, 
but where is the larger picture? Where is the strategic 
analysis of where it is going?
    Our Government Accountability Office, not Mr. Pendleton but 
others over there, have reported recently there is no strategy 
out there. And I think that is what we need. So I am not 
criticizing those people before me. I respect that you have to 
work within the confines. I think one of the things that is 
going to be problematical for all you, there is no strategy out 
there that you can then pinpoint and put a budget around and 
lead us in this direction. So the military stands up and, to 
their credit, tries to take on everything. And I am not sure 
that is going to necessarily be in all our benefit on that.
    But we have a problem with billets, filling the billets for 
all that. We have a problem with getting a budget that reflects 
what our rhetoric is. We have a problem getting people trained 
in those areas. Can somebody tell me which countries in Africa 
where there will be or where there are right now AFRICOM 
activities, or where will they most likely be in the short run? 
Which countries are we talking about in Africa?
    Ms. Whelan. Congressman, we, as the General said earlier, 
we have actually military-to-military relations with pretty 
much every country in Africa, with the exception of the 
Government of Sudan, currently Zimbabwe--although we actually 
do have an HIV/AIDS program that continues with Zimbabwe--and 
Eritrea. So there are programs, sometimes very small in nature, 
the IMET program, for example, might be the only program in a 
given country----
    Mr. Tierney. IMET being?
    Ms. Whelan. IMET, International Military Education and 
Training, which is a co--the budget comes from the State 
Department, but it is administered by the Defense Department. 
So AFRICOM would be a key component of that. So you might 
have--that might be the only activity in a country like say the 
Central African Republic, to, on the other end of the spectrum, 
our more robust activities in active peacekeeping countries, 
like Nigeria or Senegal or Rwanda or Kenya. Also we have a 
variety of activities with the South Africans, running from 
medical cooperation to environmental--military environmental 
cooperation. So you have this very, very wide range. But there 
really isn't a portion of the continent, except the three 
countries that I mentioned, where there is no U.S. military 
activity of some sort, even if it is just schooling.
    Mr. Tierney. Does there exist anywhere a written strategy 
of the U.S.' efforts to help Africa address its problems? Do we 
have that kind of strategic analysis anywhere? Or do we have 
just a U.S.' strategy for dealing with the U.S.' concerns of 
the global war on terror and oil?
    Ms. Whelan. Congressman, the recent--the administration 
recently signed out a National Security Presidential Directive 
50, which was an update of the previous strategy that had been 
signed out in 1992. And this is the articulation of U.S. 
strategy toward Africa. And there are multiple components in 
that document. It is not simply a security strategy. There is, 
obviously, a security component to it, but there are other 
components to it with regard to economic issues, development, 
etc. So that is the overarching strategy. That is the document 
that we in the Defense Department reference when we develop our 
DOD strategies to fall within the overall U.S. Government 
strategy.
    Mr. Tierney. And in that strategy is AFRICOM the central 
administrator for all that?
    Ms. Whelan. AFRICOM is--no, it is not the central 
administrator for NSPD 50. AFRICOM is a tool of the Department 
of Defense. It is actually not the only tool that the Secretary 
has at his--that is available to him for Africa. There are 
other tools as well. But AFRICOM is a tool of the Secretary to 
utilize in achieving the requirements that are articulated in 
that strategy with regard to maritime security, peacekeeping 
issues, counterterrorism, etc. AFRICOM would play a role in 
those missions. But with regard to the rest of it, no, that is 
not AFRICOM's responsibility.
    Mr. Tierney. Ambassador, whose responsibility is it?
    Ambassador Yates. Mr. Chairman, I just wanted to add that 
NSPD 50 was signed out before AFRICOM was--I mean, I can't say 
envisioned, because I knew it had been talked about, the idea 
of this single command, for over 10 years, but even the 
planning for it. So I think there is a question--if it took 
from 1992 or 1994 to develop from the last strategy for Africa 
until this strategy, it is not going to be easy to change it, 
to put AFRICOM in there. That would be something that will take 
time. So I don't think that we can judge the fact that AFRICOM 
specifically is not mentioned in NSPD 50 that we----
    Mr. Tierney. Easy for you to say.
    Ambassador Yates. Huh?
    Mr. Tierney. Easy for you to say.
    Ms. Whelan. I would just note that strategies like NSPD 50 
do not specifically direct the tools that the departments are 
supposed to use to achieve their goals. They provide the 
departments with the goals----
    Mr. Tierney. Strategy.
    Ms. Whelan [continuing]. And then it is the department that 
is supposed to figure out which tool is the most appropriate to 
achieve the goal.
    Mr. Tierney. I am going to ask my colleagues if they have 
any further questions.
    Ms. McCollum.
    Ms. McCollum. I would just--thank you, Mr. Chair, for 
having this hearing.
    And so I just want to leave here being crystal clear: PRTs, 
they perform very important missions, development projects. 
They extend basic governmental services to people who live 
outside of a capital area. For example, Afghanistan has been 
brought up. But they have only been deployed in active war 
zones as a critical tool in conducting counterinsurgency 
operations in active war zones.
    Is it your understanding that PRTs will not be part of what 
the military is looking at doing in AFRICOM unless it is in an 
active war zone? Or are PRTs-lite or PRTs, something like it, 
part of the discussion that is taking place for the military in 
AFRICOM?
    Ms. Whelan. I think the PRT is a very specialized and 
useful tool, and it is a tool that is designed for specific 
circumstances. Should the circumstances in which a PRT would be 
the most effective tool, should those circumstances arise in 
Africa----
    Ms. McCollum. I gave you a definition. I said a war zone. 
Yes or no?
    Ms. Whelan. I am sorry.
    Ms. McCollum. PRTs are currently used in war zones.
    Ms. Whelan. Yes, ma'am.
    Ms. McCollum. We can argue their effectiveness, could they 
be conducted better, or whatever. My question was, are there 
discussions going on in AFRICOM to have something similar to 
PRTs or to have PRTs functioning in nonwar zones? Yes or no?
    Ms. Whelan. I will defer that question to my AFRICOM 
colleagues.
    General Snodgrass. No.
    Ms. McCollum. Thank you.
    General Snodgrass. This is the first I have heard of it. It 
is an interesting perspective, but no.
    Ms. McCollum. That is part of the confusion up here. And I 
am just trying to make sure that I don't leave here confused.
    Thank you, Mr. Chair.
    Mr. Tierney. Thank you.
    Mr. Higgins.
    Mr. Welch.
    Mr. Higgins. No.
    Mr. Welch. No, I want to thank the witnesses.
    Thank you very much.
    Mr. Tierney. Mr. Shays?
    Mr. Shays. The only question I would ask is, is there 
anything that any of you would like to comment about what the 
others have said here, just so it is part of the record? You 
know, in other words, anything that you want to clarify?
    General Snodgrass. I would like one clarification point on 
the personnel numbers for the command. The number of 1,304, 
which includes the SOCAFRICA Africa component, and also all of 
the personnel that are U.S. military in our embassies in 
Africa, is the fiscal year 2009 funded number. The end-state 
number will be higher than that because we have had to go back 
and ask the Defense Department for additional personnel because 
some functions were left out of the original plan. And we are 
in the process of doing that right now. So I don't know what 
the final number is going to be. We went back and made an 
impassioned plea for additional people to do these functions. 
But my guess is it is going over 1,500 when it is all said and 
done. But we don't have the final answer on that yet. And that 
discussion didn't get cleaned up from earlier today.
    Mr. Shays. Anyone else?
    Ambassador Yates. Just because I brought the chart of the 
interagency, I would like to enter it. It is one I boiled down 
to use. Can we flash it up there? Can we not see the color?
    Even though Mr. Pendleton and others have raised the small 
number of interagency representatives in the command, I can say 
from being there and welcoming each one, and envisioning the 
next ones coming in, they are in critically and responsible 
positions, you know, not just mine, while still having a 
foreign policy advisor, but to have the senior development 
advisor, also to have someone in charge of outreach. You look 
across, they are in key leadership positions. And this is new. 
And this is different. And it is not easy. But I think that is 
what is going to make a difference with this model.
    Mr. Shays. You have just raised a question I want to be 
clear on. The 1,500, are they actually in the embassies or are 
they--General?
    General Snodgrass. Sir, we right now only have a small 
number. In our 53 embassies, there are only 12 ODCs, Office of 
Defense Cooperation.
    Mr. Shays. But do we envision bringing a whole host of 
people and putting them in our various embassies?
    General Snodgrass. Sir, I wouldn't typify it as a whole 
host of people. We are looking at alternatives to beef up the 
military presence on the country teams right now. And we are 
working with the department on what that plan would look like.
    Mr. Shays. So we have the traditional country teams in 
every embassy, and that number will increase, which will be 
unique to Africa as opposed to elsewhere. In other words, the 
country teams may be much larger in Africa than they would be 
in other countries?
    General Snodgrass. No, sir. I think it would bring the 
military presence on the country teams to within sight of some 
of our other country teams outside of Africa. But, you know, 
quite frankly, the staffs on the country teams are woefully 
inadequate to the tasks we are giving them.
    Mr. Shays. And so is our State department, frankly. My 
sense.
    But yes, anyone else before----
    Ms. Ploch. I just wanted to briefly address Congressman 
Welch's earlier question about how AFRICOM might affect a 
crisis like Darfur or Zimbabwe or Somalia. It is a question I 
get a lot from congressional offices. And taking a step back 
from, of course, the longer-term preventing such conflicts and 
what AFRICOM might do to prevent such conflicts, what it might 
do to affect a current conflict, you can look at what EUCOM and 
CENTCOM have been doing in relation to Darfur and Somalia. They 
have been providing airlift and last-minute peacekeeping 
training to Nigerian and Rwandan and Burundian peacekeeping 
forces that are deploying right now in Somalia and in Sudan. So 
that is certainly one aspect. Of course, another is providing 
security for food delivery and other humanitarian assistance.
    Mr. Welch. Thank you.
    Mr. Shays. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    There is apparently a great potential, obviously, for 
transnational criminality and extremism conduct going on. Do 
any of you have an update on what are we doing in terms of 
engaging all of the stakeholders in Africa, the African nations 
that might surround an area where that is going on, as well as 
other countries with an interest in it, whether it be China or 
France or anybody else on that to sort of get people to be on 
the same page as to what are the security needs of that region 
and the best way to approach them and work cooperatively with 
folks doing that, as opposed to being seen just going in and 
establishing what we think ought to be the security answer 
there?
    Ms. Whelan. Yes, Congressman.
    We actually maintain an active dialog at varying levels 
with the African countries on the transnational issues. We have 
a dialog through the African Union. We also have the dialogs 
with the regional economic communities, such as ECOWAS. And 
then we have our bilateral dialogs with individual African 
countries. Everything that we are doing in Africa right now is 
in response to pulls, essentially, from these entities at 
varying levels, whether they be looking for assistance in 
improving their multinational operations, whether they be 
looking for assistance at the bilateral level to improve their 
ability to contribute to multinational operations. We are in 
active discussions with them about what the threats are as they 
perceive them and also as we perceive them. We had a session 
just recently a couple of months ago out at Airlie House, to 
which congressional staff were invited to attend, in which we 
had representatives from 45 African countries come specifically 
to discuss the issues of current challenges, security 
challenges on the continent, and the African perspective on 
those challenges and the U.S. perspective on those challenges, 
and how those challenges--how our perspectives were either very 
similar or different, and how in those areas where they were 
similar we could work together more effectively. And so this is 
something that is--I give you that as an example. That is not 
the only time we have done that. It is an ongoing process.
    Mr. Tierney. But it is a good example. And on page 3 of 
your testimony you talked about the potential for cooperative 
programs to guarantee Africa's security. And in that, you were 
referring not just to African nations, but I believe also to 
the Chinas and France and whatever.
    Ms. Whelan. Yes, sir.
    Mr. Tierney. How are we bringing those parties into that 
conversation so they don't see us as trying to just usurp 
control over this whole situation and making it more 
international in flavor?
    Ms. Whelan. In terms of the European allies and those that 
have traditionally been active in Africa, we maintain a regular 
dialog with them through various mechanisms, again either 
bilaterally or also multilaterally. We have things called the 
P3, with sort of the big players like France, the U.K. and 
ourselves. But we also talk to the Dutch, the Spanish, the 
Norwegians, the Portuguese, and working with them from their 
perspectives and in places where of course they may have even 
better insights because of their historical experiences.
    With regard to China, we have recently opened up a defense 
dialog with China on Africa issues. We had a member of the 
Defense Department travel to China just a couple of months ago 
to give a presentation to the Chinese as part of a larger 
bilateral DOD-China dialog on Africa Command. And we have 
issued an invitation to the Chinese to come to Washington to 
talk specifically about security issues in Africa. We have 
given them three dates. We are currently waiting for the 
Chinese to come back to us with a response on those dates. So 
that is something that we----
    Mr. Tierney. I am encouraged by that. I think that is 
important that we know what their perspective is, and they know 
what ours is----
    Ms. Whelan. Yes, sir.
    Mr. Tierney [continuing]. And that we sort of get it 
straight that are trying to both agree on what is the 
security----
    Ms. Whelan. Yes, sir.
    Mr. Tierney [continuing]. Situation that we all need to 
have happen there. What is the best way of getting it, as 
opposed to just imposing it and then letting somebody else 
misinterpret it.
    Ms. Whelan. One other note is that with regard to the 
Europeans, they have been very, very forward leaning and 
extremely supportive of the concept of an AFRICOM, because they 
believe that it will improve our collective ability to 
coordinate and work together on the security challenges in 
Africa. They have from the very beginning been pressing us to 
allow them to embed officers into the command. We are very open 
to that and have told them so. We are obviously in the process 
of structuring the command right now. But we have gotten a 
great deal of enthusiasm from them. So we would expect to have 
European officers embedded in the command.
    We have also noted in our dialog with African countries 
that we would also welcome African officers being embedded in 
positions in the command and not just severing in liaison 
roles. They have taken that on board, and some of them have 
actually been quite interested in that prospect that we would 
actually open that up to them.
    Mr. Tierney. Let me, at the risk of raising your ire a 
little bit here, and I am not trying to do that, I just want to 
clarify, and yeah, we have forces in Djibouti, about 1,500; am 
I right? That includes Special Ops and others, or is that 
separate from them? Are we counting Special Ops in that number?
    Ms. Whelan. We have, yes, personnel in Djibouti, both staff 
and forces.
    Mr. Tierney. That make up that 1,500?
    Ms. Whelan. That make up that total of 1,500.
    Mr. Tierney. DIA personnel also make up that 1,500, or are 
they counted separately?
    Ms. Whelan. I believe they make up part of that total, but 
I would need to take that for the record to make absolutely 
sure. But I believe they do.
    Mr. Tierney. OK. So we have that presence. We have some 
intermittent groups of SEALs or Special Ops or other people 
training in whatever the General mentioned that through there. 
We have a small number of military in the embassies throughout, 
which may be increased on that. And the issue of combatant 
command center for AFRICOM being in Africa is no longer on the 
table or just pushed down the road?
    Ms. Whelan. I think the issue of having some AFRICOM 
headquarters presence on the continent is still on the table, 
but it is pushed down the road because we have other things 
that need to be focused on.
    Mr. Tierney. What about the three or four satellite 
offices? Are they no longer on the table, or are they also 
pushed down the road?
    Ms. Whelan. That is pushed down the road.
    Mr. Tierney. So there is a possibility sometime of having 
the command center and three or four satellite presences 
somewhere spread throughout Africa.
    Ms. Whelan. Yes, Congressman.
    Mr. Tierney. We have not determined what the size is going 
to be, what the physical structures in the body will be, what 
the make-up of the personnel will be, whether they will be DIA, 
Special Ops or anything of that; none of that has been decided?
    Ms. Whelan. Right. None of that has been decided. And what 
we are looking at, again, is a physical structure for the 
command that will optimize the command's ability to carry out 
its mission. So we have some notional ideas on what might be 
required, but we have pushed further exploration of that issue 
down the road so that we could focus on some more pressing 
issues toward achieving our goal of full operational capability 
by October 1st.
    Mr. Tierney. Thank you.
    General, what training is in place for our military 
personnel to make sure that they have the kind of cultural 
understanding and language capacity that would make their 
service there more useful?
    General Snodgrass. That is an excellent question, Mr. 
Chairman. In terms of the language capacity--excellent question 
from the back row.
    Mr. Tierney. Yes, it was.
    General Snodgrass. You know better than I the struggles 
that all Americans have with foreign languages. And frankly, 
having lived in Europe now for over 4 years, or actually over 8 
years on separate assignments, having a second language is very 
important.
    Now, the U.S. military, as a reflection of our society, has 
those same problems. But in terms of cultural training, one of 
the things that we started after I got there, and with a bunch 
of other folks, Ambassador Yates included, was a series of 
processes where we identified cultural training and other kinds 
of professional military education that we wanted our officers 
to go through. For example, at Wright-Patterson Air Force Base 
in Ohio, there is a course that teaches people how to work 
within the embassy country team and how FMF and FMS cases 
actually run, so that you can understand how the country team 
is working through it.
    We also have the African Center for Strategic Studies in 
our staff who put together a week-long series of lectures by 
Africans, who came in early in the program's standup, and we 
are going to bring them back now after a year to teach us about 
Africa from the Africans' perspective and talk to us about the 
way that Africans look at their problems so that we can provide 
value for them.
    We have online courses that we have identified, as well as 
courses that we will send people to in the United States to get 
a better cultural awareness of the Africans. But remember we 
are talking about a continent of 900 different languages and 
cultures. And with enough geographic area that you can fit the 
United States, China, Western Europe, Argentina, and still have 
200 million square miles remaining. So it is an extraordinarily 
diverse culture that we are trying to grasp and put our hands 
around. But we are making efforts to do that as best we can.
    Mr. Tierney. We may have to give you an extra week or two 
to get that together.
    General Snodgrass. Another week would do it, sir.
    Mr. Tierney. I want to thank all the witnesses here today. 
If the feedback is helpful to you at all, from my perspective, 
and Mr. Shays may want to add something on that, I respect what 
the military is doing there. I mean, I think there is obviously 
a security component to all of that.
    That said, I am not comfortable that the military is the 
right entity to be leading all the civilian aspects of this. 
And I am not sure it is fair to put that on the military. I 
respect that Secretary Gates has stepped forward on that, and I 
think his leadership is great. I am not sure that even he 
intended that he was going to get stuck with the whole 
responsibility of it once he recognized the issue on that. And 
I think I can really see clearly why others are concerned, not 
necessarily--because there hasn't been time to see the actions 
prove the rhetoric. So I think there was concern in, your 
presence looks very military. Your mission statement looks 
military. All the cooperation with other countries are 
military, all of that, and there has been no track record yet 
of any action that shows us that there really is going to be 
this great civilian component to it with humanitarianism and 
focusing on Africa's problems. To get to that point, I see 
problems with the billets. How we are going to get the people 
to fill those posts? And how we are going to organize them? And 
who is going to be in charge? And how we are going to make it 
clear that it is not the military telling what to do on that 
aspect of it, but those people associated with those kinds of 
activities taking care of their business with support from the 
military? All of that isn't clear for me, so I can understand 
how it is not clear for people in Africa or people in the NGO's 
or other groups that are looking at this thing. And I wish we 
had a governmentwide recognition of the problem on this, and 
then approach it from that basis. I think maybe we would not 
have pushed our military to have to be the lead in all the 
humanitarian things as well. And I am not sure how we get from 
one point to another on that or whatever, but there is a 
security role there for sure. And there is a larger role for 
other activities that really address Africa's concerns 
certainly. I just don't think that Africans are going to ever 
get that message in the current structure that is there unless 
we do some serious readjustment with that and increase a lot of 
personnel, and have a budget that reflects that this is really 
what our mission is, and the security aspect is a part of it.
    Mr. Shays. If I could?
    Mr. Tierney. Sure.
    Mr. Shays. I would just react to say that I think this is a 
very helpful hearing and one in which I would suspect, Mr. 
Chairman, you are going to be following closely.
    I think you know the concerns that come from the committee, 
and I think the concerns that are being expressed out with the 
general public and the NGO's and so on. But my sense is that 
the model has potential. Given that we don't have bases in 
Africa, I am struck by the fact that it is hard to have a 
different kind of presence and that we are almost being forced 
to look at something that I think makes sense, and that is a 
collaboration. And we know that there is a goal of 25 percent, 
and we will be eager to see how that unfolds, if it actually 
happens or not. And this may turn out to be a really 
constructive effort, benefiting both State and Defense, and our 
country and Africa, or it could be something else. So I think, 
for me, the jury is still out. And it will be interesting to 
see how you all make it work.
    Mr. Tierney. Mr. Shays, you deserve the benefit of General 
Snodgrass's reaction to your 25 percent comment.
    General Snodgrass. Sir, the 25 percent number for the 
interagency is more urban legend than a goal. It was thrown out 
at a news conference.
    Mr. Shays. So what is the number?
    General Snodgrass. Sir, we don't have a goal. Quite 
frankly, we are trying to bring on the interagency players who 
can provide value. And we are bringing them on in a pace that 
allows them to provide value back to their----
    Mr. Shays. Let me just pursue that for a second then.
    General Snodgrass. Yes, sir.
    Mr. Shays. Then, what that says to me is that you aren't 
coopting, in one sense, State, you are basically----
    Mr. Tierney. Replacing it.
    Mr. Shays [continuing]. You are basically having a 
presence. Well, sort that out. I am sorry to extend the hearing 
a second.
    General Snodgrass. No, sir, you are on track with this. We 
think we are going to get about 50 in the first year.
    Mr. Shays. Let me say, if you had said you were going to do 
none, would we even be having this hearing?
    General Snodgrass. Sir, that is way above my pay grade.
    Mr. Tierney. Can I just interject for a second?
    Mr. Shays. Yes.
    Mr. Tierney. Yes, I think we probably would be having the 
hearing, because we would still be looking to see whether or 
not the U.S.' mission is here is to help Africa with Africa's 
problems or to help the United States with its problems. We say 
in the rhetoric that we are going in to work with Africa to 
resolve its issues. They don't have just military issues. So if 
they weren't bringing in the other groups or doing that, then 
we would have two questions. One is, why we have just military? 
Or why do we have the military doing all those civilian 
functions instead of bringing in civilian people to do it? So 
there would still be a lot to talk about.
    Mr. Shays. Right.
    General Snodgrass. My point, sir, would be we are trying to 
right size the commands and our agency participation for the 
tasks that we are going to achieve. And we are still learning 
about that as we go.
    But every time someone from another department comes to the 
command and sees what we are doing, some come very skeptical 
and leave very, very positive, enthusiastic about participating 
with the command.
    Mr. Shays. Let me just then make this point. I think it is 
nonsensical to have divided Africa up the way we did. I think 
it is almost an insult to the continent of Africa and its 
people that said, you know, you are our miscellaneous; we are 
just going to fit you in with our other focus. I like having an 
African focus. And I realize Africa is a huge continent with, 
as you pointed out, many cultures and languages. Hundreds. But 
I like that part of it.
    What I don't want is to have DOD coopt the responsibilities 
of State. But conversely, I would love State to have a little 
more influence with DOD. And if that is the way it works out, 
then I will be someone who will be applauding. And if it 
doesn't, I won't.
    Thank you.
    Mr. Tierney. He is in the favored seat here; he has it both 
ways.
    Thank every one of you. Your testimony has really been 
extraordinarily helpful. And I know we kept you here probably a 
little longer than we had intended, but we appreciate it a 
great deal. Again, thank all of you for your service to your 
country. We don't say that just offhand. We are serious about 
it. And we know that you are, too. So we appreciate it.
    The meeting is adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
